Report No. D-2009-028           December 10, 2008




     Organizational Structure and Managers'
        Internal Control Program for the
         Assistant Secretary of Defense
          (Public Affairs) and American
           Forces Information Service
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937), or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General for
Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can also be
mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFIS                          American Forces Information Service
AFRTS                         American Forces Radio and Television Service
ASD(PA)                       Assistant Secretary of Defense (Public Affairs)
APO                           Accountable Property Officer
DASD                          Deputy Assistant Secretary of Defense
DMA                           Defense Media Activity
DMC                           Defense Media Center
DINFOS                        Defense Information School
DPAS                          Defense Property Accountability System
IG                            Inspector General
MIC                           Managers’ Internal Control
OASD(PA)                      Office of the Assistant Secretary of Defense (Public
                                Affairs)
OSD                           Office of the Secretary of Defense
SCIG                          Strategic Communication Integration Group
U.S.C.                        United States Code
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/DoD Chief Financial
                               Officer
WHS                           Washington Headquarters Services
                                         INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                          400 ARMY NAVY DR IVE
                                     ARLINGTON. VIRGINIA 22202-4704



                                                                                        December 10, 2008


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DoD CHIEF
                 FrNANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (PUBLIC AFFAIRS)
               DIRECTOR, ADMrNlSTRATfON AND MANAGEMENT
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               DIRECTOR, DEFENSE MEDIA ACTIVITY
               DIRECTOR, W ASBINGTON HEADQUARTERS SERVICES

SUBJECT: Organizational Structure and Managers ' Internal Contro l Program for the Assistant
         Secretary of Defense (Pub lic Affairs) and American Forces Information Service
         (Report No. 0 -2009-028)


We are providing this report for review and comment. We considered comments from clients on a draft
of this report when we prepared the final report.

000 Directive 7650.3 requires that all recommendations be resolved promptly. Comments from the
Acting Deputy Chief Financial Officer and Director of Acquisition Management at the Defense
Logistics Agency were responsive. However, comments on Recommendations A.I.a. , A.I.b, A.2 ., B.l.,
B.2.a., B.2.b., D.3 .a., D.3.f., and D.3 .g. from the Acting Assistant Secretary of Defense (Public Affairs)
and Acting Deputy Director of Administration and Management were only partially responsive.

After receiving client comments, we met with representatives from the Office of the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer. As a result of the meeting, we redirected
Recommendation A.2. to the Director, Washington Headquarters Services. We revised
Recommendations B. l. and C.I. We request additional comments on Recommendations A.I.a., A.I.b,
A.2., B.l., B.2.a., B.2.b. , C. l. , D.3.a., D.3.f., and D.3.g. by January 12,2009.

Please send management comments in electronic format (Adobe Acrobat file only) to
AudDBO@dodig.mil. Copies of the client comments must contain the actual signature of the
authorizing official for your organization. We cannot accept the I Signed I symbol in place of the actual
signature. If you arrange to send classified comments electronically, they must be sent over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Questions should be directed to Mr. Carmelo G.
Ventimiglia at (317) 510-4801, extension 275 (DSN 699-4801) or Mr. George C. DeBlois at
(317) 510-480 I, extension 273 (DSN 699-480 I). The team members are listed inside the back cover.


                                              f~ Q. fJ7~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations
                    Report No. D-2009-028 (Project No. D2007-D000FI-0215.000)
                                        December 10, 2008

        Results in Brief: Organizational Structure
        and Managers’ Internal Control Program for
        the Assistant Secretary of Defense (Public
Affairs) and American Forces Information Service

What We Did                                            unnecessarily purchased about $940,000 in
We evaluated the organizational structure and          equipment. Further, neither OASD(PA) nor
effectiveness of the Managers’ Internal Control        AFIS effectively implemented the Managers’
Program established at the Office of the               Internal Control Program.
Assistant Secretary of Defense (Public Affairs)
(OASD[PA]) and the American Forces                     What We Recommend
Information Service (AFIS). On October 1,                 •   Expedite the selection of the DMA
2008, DoD consolidated the Military Service                   Director and other key managers.
media organizations and AFIS into a new                   •   Reissue DoD Directive 5122.5.
Defense Media Activity (DMA). We conducted                •   Implement a DMA-wide personal
this audit at the request of the Assistant                    property program.
Secretary of Defense (Public Affairs).                    •   Investigate potential misuse of funds,
                                                              improper contracting, and statutory
What We Found                                                 violations.
The organizational structure did not provide the          •   Conduct report of survey investigations
appropriate segregation of duties between the                 for missing equipment.
policy and oversight functions in the                     •   Establish DMA contracting and
OASD(PA) and the operational functions that                   purchasing requirements and establish a
AFIS should perform. Specifically, the failure                new DMA contracting office.
to appoint an AFIS Director for more than                 •   Implement DoD Instruction 5010.40 at
7 years has:                                                  DMA.
    • limited the day-to-day planning,                    •   Establish OASD(PA) as an assessable
        directing, and controlling of the                     unit of the Office of Secretary of
        decision-making process needed for                    Defense.
        achieving the AFIS mission;
    • allowed the use of AFIS budgetary                Client Comments and Our
        resources to support OASD(PA)
        programs;
                                                       Response
    • decentralized AFIS business enterprise           Clients generally agreed with our
        services; and                                  recommendations. Based on comments from
    • jeopardized AFIS resources and                   the Acting Deputy Chief Financial Officer, we
        subjected them to waste and abuse.             redirected one recommendation to the
                                                       Washington Headquarters Services and revised
In addition, AFIS did not establish an                 two other recommendations to clarify their
entity-wide program to manage personal                 intent. For the recommendations requiring
property, could not account for almost                 additional comments, please see the table on the
$650,000 in personal property, and may have            back of this page.
                                                   i
                Report No. D-2009-028 (Project No. D2007-D000FI-0215.000)
                                    December 10, 2008

Recommendations Table

Client                           Recommendations                 No Additional Comments
                                 Requiring Comment               Required
Under Secretary of Defense                                       A.2., B.1., C.1., and D.1.
(Comptroller)/DoD Chief
Financial Officer
Assistant Secretary of Defense   A.1.a., A.1.b, A.2., B.1.,      A.1.c, A.3., B.2.c., B.2.d.,
(Public Affairs)                 B.2.a., B.2.b., C.1., D.3.a.,   B.2.e., C.2., C.3., C.4., D.2.,
                                 D.3.f., and D.3.g.              D.3.b., D.3.c., D.3.d., and
                                                                 D.3.e.
DoD Director of Administration   A.1.b.                          A.1.a. and A.1.c.
and Management
Director, Defense Logistics                                      C.2.
Agency
Director, Washington             A.2.
Headquarters Services


Please provide comments by January 12, 2009.




                                               ii
Table of Contents

Results in Brief                                                               i

Introduction

       Objectives                                                             1
       Background                                                             1

Finding A. DoD Public Affairs Organizational Structure                         5

       Recommendations, Client Comments, and Our Response                     18

Finding B. AFIS Personal Property Accountability and Safeguarding             23

       Recommendations, Client Comments, and Our Response                     32

Finding C. AFIS Acquisition Process                                           37

       Recommendations, Client Comments, and Our Response                     46

Finding D. Managers’ Internal Control Program                                 51

       Client Actions                                                         57
       Recommendations, Client Comments, and Our Response                     58

Appendices

       A. Scope and Methodology                                               61
             Review of Internal Controls                                      62
             Prior Coverage                                                   63
       B. Major Responsibilities and Functions                                65
       C. DMA Management Positions                                            69

Client Comments

       Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer   73
       Assistant Secretary of Defense (Public Affairs)                        76
       Director of Administration and Management                              86
       Defense Logistics Agency                                               88
Introduction
Objectives
The Assistant Secretary of Defense (Public Affairs) (ASD[PA]) requested that we review
the funding and execution of Office of the Assistant Secretary of Defense (Public Affairs)
(OASD[PA]) and American Forces Information Service (AFIS) programs. As part of
that request, we evaluated the organizational structure and effectiveness of the Managers’
Internal Control (MIC) Program established at the OASD(PA) and AFIS. Specifically,
we determined whether OASD(PA) and AFIS properly segregated duties and established
effective internal controls. This is the first in a series of audits addressing the concerns of
the ASD(PA). See Appendix A for a discussion of the scope and methodology, our
review of internal controls, and prior audit coverage related to the objective.

Background
Section 143, title 10, United States Code (U.S.C.) established the Office of the Secretary
of Defense (OSD) personnel limitations, which includes the DoD military and civilian
personnel assigned to, or employed in, OSD functions. The OSD includes the DoD
Director of Administration and Management and the ASD(PA). These senior DoD
officials serve as the principal advisors to the Secretary of Defense on matters related to
their assigned functions. Section 191, title 10, U.S.C. authorized the Secretary of
Defense to establish various Defense agencies and field activities to provide common
supplies or services and conduct day-to-day operations under the oversight of the OSD.
The Deputy Secretary of Defense established AFIS as the DoD field activity under the
authority, direction, and control of OASD(PA) to provide DoD personnel with media
information support and to train DoD public affairs and visual information professionals.

DoD Director of Administration and Management
The DoD Director of Administration and Management is the principal staff assistant and
advisor to the Secretary and Deputy Secretary of Defense on DoD-wide organizational
and administrative management matters. The Director develops and maintains
organizational charters, oversees assigned programs, serves as the DoD focal point for
DoD quality management matters, and analyzes and controls OSD personnel
requirements. The Director also directs the Washington Headquarters Services (WHS).
WHS provides consolidated administrative and operational support (such as financial
management, human resources, and facilities services) to several Defense agencies, DoD
field activities, the Military Departments headquarters elements, and the White House.
The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
(USD[C]/CFO) provides funding to OASD(PA) through Defense appropriation
allotments administered by WHS.




                                              1
Office of the Assistant Secretary of Defense
(Public Affairs)
DoD Directive 5122.5, “Assistant Secretary of Defense for Public Affairs (ASD[PA]),”
September 27, 2000, establishes the ASD(PA) as the principal staff assistant and advisor
on public affairs matters to the Secretary and Deputy Secretary of Defense. The former
ASD(PA) resigned in October 2007. On March 21, 2008, the Deputy Secretary of
Defense appointed a Principal Deputy Assistant Secretary of Defense (Public Affairs)
and made him Acting ASD(PA).

As an OSD-level entity, the OASD(PA) provides direct support to the Secretary and
Deputy Secretary of Defense. The ASD(PA) serves as the DoD public spokesperson and
information release authority, and oversees the performance of such functions as:

   •   developing DoD Public Affairs policies, plans, and programs;
   •   ensuring the free flow of news and information;
   •   planning, programming, and budgeting activities; and
   •   responding to inquiries on DoD policies, programs, and activities.

See Appendix B for a more comprehensive list of the major responsibilities and functions
of the OASD(PA). To assist in accomplishing OASD(PA) functions, the former
ASD(PA)s appointed several Deputy Assistant Secretaries of Defense (DASDs) and other
Directors. As of September 4, 2007, the OASD(PA) had 89 staff positions assigned to
offices within the Pentagon. The ASD(PA) also exercises authority, direction, and
control over AFIS in accordance with DoD Directive 5122.10, “American Forces
Information Service (AFIS),” November 21, 2000.

American Forces Information Service
DoD Directive 5122.10 establishes AFIS as a field activity reporting to the OASD(PA)
and describes the AFIS mission, responsibilities, functions, authority, and relationships.
AFIS is responsible for the execution of DoD Public Affairs policy and programs. See
Appendix B for a list of major AFIS functions. In FY 2007, AFIS received
$148.2 million in Defense Operation and Maintenance funds, $18.8 million in
supplemental Global War on Terror funds, and $5.6 million in Defense Procurement
funds. As of July 2007, AFIS had approximately 1,263 employees in the following nine
components.

   •   AFIS Headquarters – Alexandria, Virginia
   •   American Forces Radio and Television Service (AFRTS) – Alexandria, Virginia
   •   Defense Media Center (DMC) – Riverside, California
   •   Overseas Components of Armed Forces Network
   •   Stars and Stripes – Washington, D.C. and overseas
   •   Defense Information School (DINFOS) – Fort Meade, Maryland




                                             2
    •   Defense Visual Information Center – Alexandria, Virginia; Riverside, California1
    •   Joint Combat Camera Center – Pentagon
    •   Joint Visual Information Service Distribution Agency – Tobyhanna, Pennsylvania

Defense Media Activity
The FY 2005 Defense Base Realignment and Closure Commission recommended that
DoD consolidate the media operations and programs of the Military Services, collocate
them with AFIS, and relocate them to Fort Meade. The Deputy Secretary of Defense
memorandum, “Establishment of the Defense Media Activity,” September 24, 2007,
directed that the media organizations of the Military Services and AFIS consolidate into
the Defense Media Activity (DMA). The goal was to establish a streamlined
organization to execute DoD media functions within economies of scale. Major
milestones associated with the establishment of DMA include:

    •   May 13, 2005 – The effective implementation date for the FY 2005 Defense Base
        Realignment and Closure Commission recommendations.
    •   December 18, 2007 – DoD Directive 5105.74, “Defense Media Activity,” issued.
        It defines the DMA mission, management, functions, and relationships.
    •   January 1, 2008 – The ASD(PA) assumed control of the Military Services media
        activities and AFIS. The DMA established a direct liaison to the Military
        Services media units. The Military Services and AFIS will continue to provide
        the funding and administrative support to continue day-to-day media operations
        until formal transfer to DMA.
    •   October 1, 2008 – AFIS and Military Services media activities’ personnel,
        funding, and resources formally transfer to DMA. DoD disestablishes AFIS.
    •   September 15, 2011 – Planned date of completion for DMA facility construction
        and relocation of those elements identified to move to Fort Meade.




1
  On October 26, 2007, the ASD(PA) established the Defense Imagery Management Operations Center to
replace the Defense Visual Information Center, Joint Combat Camera Center, and Joint Visual Information
Service Distribution Agency.


                                                   3
4
Finding A. DoD Public Affairs Organizational
Structure
The OASD(PA) and AFIS did not have clearly defined organizational structures and
management responsibilities to ensure accomplishment of the DoD Public Affairs
missions. Without clearly defined organizational structures and management
responsibilities, the ASD(PA) could not ensure that:

     •   resources were used efficiently and effectively to accomplish their mission;
     •   OASD(PA) and AFIS budgetary resources were not commingled or
         inappropriately used;
     •   management positions and personnel were assigned in accordance with
         authorized staffing levels; and
     •   OASD(PA) and AFIS used centrally managed business services to gain
         efficiency and provide appropriate oversight over operations.

The transition to DMA affords the ASD(PA) the opportunity to separate its public affairs
policy and oversight responsibilities from day-to-day business operations and develop an
effective field activity for managing the DoD Public Affairs mission and resources. The
ASD(PA) should expedite the selection of the DMA Director and, based on the
completion of the DMA organizational and management design study, assign the key
managers needed to ensure that DMA could assume functions efficiently on October 1,
2008. The DoD Director of Administration and Management should reissue the DoD
directives governing OASD(PA) to clearly define and distinguish the roles and
responsibilities between OASD(PA) and DMA and assist the OASD(PA) and DMA in
managing its authorized “manpower” requirements. The ASD(PA) and WHS should
work with the USD(C)/CFO to investigate the propriety of the past use of AFIS funding
to support OASD(PA) activities.

DoD Alignment and Restructure
Government Accountability Office Report No. 00.21.3.1, “Standards for Internal Control
in the Federal Government,” November 1999, emphasizes the need for defined lines of
authority, clear reporting relationships, and an appropriate level of management to ensure
a positive control environment. In November 1997, the Secretary of Defense announced
the Defense Reform Initiative to review DoD posture, policy, and programs, which
included streamlining the organization and eliminating excess support structures. The
initiative focused on unifying the DoD vision by committing leaders to change,
implementing core competencies, developing agile organizations, investing in people,
using information technology, and removing barriers between DoD Components. In
developing the initiative, DoD leaders considered assessments of DoD organizational
structures and functions to identify duplication of effort and develop better business
practices. According to the initiative, the composition of the OSD should include a core




                                            5
staff that provides advice and support to the Secretary of Defense and the Defense
support activities that perform technical and analytical services. The OSD staff should
provide the following core functions:

       •   policy and guidance development,
       •   long-range planning,
       •   program performance monitoring and evaluation, and
       •   program and component resource allocation.

The initiative stated that over time, the OSD became involved in program management,
direct control over functional activities, and management of an expanding number of
centralized services organized into Defense agencies and field activities beyond the scope
of its intended functions. The initiative set out to reverse this trend by refocusing the
OSD on corporate-level tasks and the oversight (as opposed to day-to-day management)
of its many operating components. This refocus provided a more streamlined structure to
avoid taking on non-core responsibilities and recognized the need to provide additional
resources to the operating components. As defined by the initiative, the management of
day-to-day business operations is a function of the DoD agencies and field activities.
DoD Instruction 5100.73, “Major Department of Defense Headquarters Activities,”
December 1, 2007, states that major DoD headquarters activities (including OSD and
field activities directly supporting headquarters) should be organized and staffed in a
manner that permits the effective accomplishment of assigned responsibilities with a
minimum number of personnel. The instruction also warned that the use of dual-hatting
could distort the true strength or structure of major DoD headquarters activities.2

OASD(PA) Organizational Structure
Some senior OASD(PA) management officials assumed operational control over AFIS
activities and programs. Since January 2001, the senior executives serving as the
ASD(PA) have not appointed an AFIS Director.3 Instead, they delegated the
responsibility for managing AFIS operations to the DASDs. The ASD(PA) should have
appointed an independent AFIS Director to serve as the day-to-day manager of the field
activity and ensured that the OASD(PA) provided the appropriate policy and oversight
over AFIS. Instead, the ASD(PA) assumed the Director position and over the last 5 years
has allowed the DASD for Internal Communications, DASD for Joint Communication,
and OASD(PA) Director of Administration and Management to assume day-to-day
operational control over AFIS components and develop OSD-level programs not defined
in DoD Directive 5122.5. This allowed a breakdown in the separation of duties between
the OASD(PA) policy and oversight functions and AFIS operational management, and it
led to the inappropriate merging of OASD(PA) and AFIS resources. Figure 1 shows the
OASD(PA) and AFIS organizational structures as of July 12, 2007, and depicts how the
various DASDs had assumed authority for AFIS offices and programs.


2
    Dual-hatting occurs when a management official fills more than one distinct position.
3
    Since January 1, 2001, there have been three ASD(PA)s and three Acting ASD(PA)s.


                                                       6
                             OASD(PA) Organizational Structure

                                                   ASD(PA)                     Director
                                                                                 AFIS


Director       DASD for Internal            DASD               DASD           DASD for                Director for
  for           Communications               Press           for Media          Joint                Administration
Writers        and Public Liaison          Secretary         Operations     Communication                 and
 Group                                                                                                Management

               Community Relations               Director for                     Strategic
                and Public Liaison,            Communications                  Communication
               Entertainment Media,                                         Integration Team and
                  and Information                 Outreach                  Process Management
               Resource Management                                                  Team



                                 AFIS Organizational Structure

                                                       Director
                                                           AFIS


  DASD for                DASD for            Director, Defense             DASD for                 Director for
   Internal             Public Liaison         Media Activity                 Joint                 Administration
Communications                                Transition Team             Communication            and Management



   Defense Media             Public             Defense Media         DINFOS and Defense           Enterprise Business
   Center, Stars &      Communications,        Activity Transition     Visual Information           Services (includes
Stripes, New Media,      Public Inquiry,              Team                                              personnel
   and Broadcast          and Current                                                              management, finance
                         News Service                                                                and accounting)



*Blue boxes represent dual-hatted positions that should not be part of the AFIS organizational structure.


              Figure 1. OASD(PA) and AFIS Organizational Structures




                                                       7
DASD for Internal Communications
The DASD for Internal Communications had roles and responsibilities beyond those in
DoD Directive 5122.5. In December 2003, the ASD(PA) appointed a DASD for Internal
Communications to develop policies, guidelines, and standards for providing central
management over DoD internal information programs. The major duties described in the
position description included providing policy and oversight to AFRTS, internal
information programs, visual information activities, combat camera operations, and the
Stars and Stripes newspaper operations. (See Appendix C for a detailed list on the major
responsibilities assigned in the position description.) The position description stated that
the DASD for Internal Communications provided staff and operational control over the
Defense Visual Information Center and the Joint Combat Camera Center and managed
and allocated the AFIS Internal Communications annual budget. According to DoD
Directive 5122.10, these functions should reside with the AFIS Director, with the DASD
for Internal Communications providing the oversight function. In the absence of an
AFIS Director, the ASD(PA) permitted the DASD for Internal Communications to
assume the day-to-day operational management over associated AFIS components and
programs. This weakened the internal control structure by permitting the DASD for
Internal Communications to become the reporting official for various AFIS employees
and allowing for the commingling of OASD(PA) and AFIS personnel and funding
requirements.

Over the last 3 years, the DASD for Internal Communications had also assumed
management over the OASD(PA) public liaison role and functions. However, she did not
receive an official appointment to the position, and the ASD(PA) had not updated the
position description of the DASD for Internal Communications to include this new role.
The Office of the DASD for Public Liaison had a separate mission from the Office of the
DASD for Internal Communications. Public liaison responsibilities included providing
policy and oversight for the DoD Public Inquiry Office and Current News Service and
management over programs not specifically included in DoD Directive 5122.5, such as
Why We Serve, America Supports You, and the Joint Civilian Orientation Conference.
These programs supported the Secretary of Defense requirements for increasing the
public’s knowledge of the DoD mission.

The OASD(PA) had budgeted for a limited staff to support these programs. However,
the DASD for Internal Communications also used AFIS personnel and funding not
specifically identified in OASD(PA) budget requests to operate these programs. The
FY 2007 AFIS Authorized Manpower Requirements and Alignment Document
(manpower document) showed that seven AFIS employees reported directly to the DASD
for Internal Communications. Three of these employees were AFIS program managers
who reported directly to the AFIS Director.4 The other four employees were public




4
 Because the ASD(PA) had not appointed an AFIS Director or acting director, several of these individuals
should have reported directly to the ASD(PA).


                                                   8
affairs specialists who directly supported the DASD for Internal Communications (one
individual had the title of special advisor to the DASD) and should have been part of the
OASD(PA) manpower document.

The ASD(PA) should determine whether the internal communication and public liaison
functions require separate DASDs or can remain combined. The ASD(PA) should also
determine whether the OASD(PA) should continue to administer the public inquiry
programs at the OSD-level or transfer them to the DMA Director since the field activity
should manage all operational programs. After determining the roles of the DASD for
Internal Communications and the DASD for Public Liaison, the ASD(PA) should work
with the DoD Director of Administration and Management to define manning
requirements and update DoD Directive 5122.5 to clarify the existing mission of the
DASDs. The ASD(PA) should then update the manning allocations and position
descriptions for the DASD for Internal Communications and the DASD for Public
Liaison.

DASD for Joint Communication
The DASD for Joint Communication had roles and responsibilities beyond those in DoD
Directive 5122.5. In the position description dated January 6, 2005, the ASD(PA)
appointed the DASD for Joint Communication to lead the strategic communication
working group, represent the ASD(PA) on the Strategic Communication Integration
Group (SCIG), supervise education and training programs (including DINFOS), and
oversee visual information. (See Appendix C for all the major duties described in the
DASD for Joint Communication position description.) However, the ASD(PA) did not
clearly relate the responsibilities of the DASD for Joint Communication to the DoD
Directive 5122.5 or appropriately budget for the funds for the DASD to support strategic
communication. The position description also stated that the DINFOS Commandant and
the Director of Visual Information would report to the ASD(PA) through the DASD for
Joint Communication.5 The position description was inconsistent with the guidance
contained in DoD Directive 5122.10, which assigned AFIS the responsibility for
managing these activities. The alignment of responsibilities in DoD Directive 5122.5
should ensure the proper separation of duties between the OASD(PA) policy and
oversight functions and the day-to-day management of AFIS programs.

Strategic Communication. DoD Directive 5122.5 does not specifically address the
roles and responsibilities of the DASD for Joint Communication. Those roles and
responsibilities have evolved with the need to support the Combatant and Joint Force
Commanders with joint communications capabilities and synchronize DoD
communication with other Federal agencies. The Quadrennial Defense Review Report,
February 6, 2006, identified gaps in the primary supporting capabilities of public affairs,
Defense Support to Public Diplomacy, military diplomacy, and information and
psychological operations. To close those gaps, the report stated that DoD would focus on
properly organizing, training, equipping, and resourcing its key communication

5
 The Director of Visual Information managed the Defense Visual Information Center, Joint Combat
Camera Center, and Joint Visual Information Distribution Activity.


                                                  9
capabilities. On August 25, 2006, the Deputy Secretary of Defense established the SCIG
and SCIG Secretariat to coordinate and synchronize OSD, Combatant Commander, and
the Military Department communications plans and concepts in collaboration with the
Department of State. The Deputy Secretary of Defense requested individuals from
various DoD Components to serve full-time in the SCIG Secretariat. On January 31,
2007, the Deputy Secretary of Defense appointed the DASD for Joint Communication as
the SCIG Secretariat Director. The Deputy Secretary of Defense developed a strategic
communication execution roadmap and defined the SCIG responsibilities as:

       •   institutionalizing processes by incorporating principles of strategic
           communication in the development of DoD strategy, policy formulation,
           planning, and execution;
       •   defining strategic communication roles, responsibilities, and relationships;
       •   developing doctrine; and
       •   providing Military Departments and Combatant Commands resources to
           organize, train, and equip its primary communication supporting capabilities.

Funding for Strategic Communications. The FY 2007 OSD Budget Estimate
Submission did not provide funding for strategic communications. Instead, the
USD(C)/CFO allocated $2.7 million in FY 2007 Defense Operation and Maintenance
funds to the Under Secretary of Defense (Policy) to begin implementing the strategic
communication effort. On April 3, 2007, the DASD for Joint Communication used
approximately $1 million of these funds for a contract to design and plan the processes
for implementing the strategic communication execution roadmap. The FY 2008 Budget
Estimate Submission from the Under Secretary of Defense (Policy) requested an
additional $3 million to support the SCIG. However, the Senate Report to the FY 2008
National Defense Authorization Act, June 5, 2007, recommended a $3 million decrease
in DoD Operation and Maintenance funds and stated that:

              The budget request included $3.0 million for the Office of the Secretary
              of Defense for Strategic Communication and Integration. This funding
              would support a contract to help institutionalize strategic
              communications and complete the implementation of the Strategic
              Communication Execution Roadmap. Responsibility for strategic
              communication and public diplomacy rests with the President and
              Secretary of State, and any DoD efforts to formulate a message should
              be informed and framed by those efforts. Moreover, public diplomacy,
              public affairs, and information operations are separate and distinct
              functions, with different purposes and guidelines for their use. Any
              attempt to integrate them could compromise the integrity of each of
              these functions. Nonetheless, the committee supports the use of
              Operation and Maintenance funds of the respective offices conducting
              communications activities in order to improve the Department’s
              communication efforts, including updating regulations and other
              activities being conducted as part of the strategic communication and
              integration effort.

The Office of the Under Secretary of Defense (Policy) complied with the Congressional
action and did not allocate funds for the strategic communication initiative in FY 2008;


                                                10
however, the DASD for Joint Communication continued to pursue this effort. From
August through December 2007, the DASD for Joint Communication modified the
contract for services through January 15, 2008, using $426,767 in AFIS funds. In
January 2008, DASD for Joint Communication met with the Deputy Secretary of Defense
and requested additional funds for strategic communications. Based on the request and
confirmation from the Office of the Deputy Secretary of Defense, the USD(C)/CFO
directed WHS to provide $500,000 in funding to support the SCIG. WHS then
reallocated unassigned FY 2008 Defense Operation and Maintenance funds to the Under
Secretary of Defense (Policy). On January 15, 2008, the Office of the DASD for Joint
Communication awarded a second contract for $492,611 citing the Under Secretary of
Defense (Policy) funds to continue implementation of the strategic communication
roadmap using this allocation. The contract required the performance of the following
tasks.

   •   Establish a Program Management Office to provide subject matter expertise
       capabilities to the joint communication initiative.
   •   Design, develop, and implement a strategy for managing the DoD joint
       communication changes.
   •   Research, design, and develop an analytical approach for the joint communication
       tasks.
   •   Design, develop, and execute a seminar of key stakeholders to advance the
       awareness and understanding of the future state of DoD joint communication.
   •   Provide policy analysis support on communication-related directives, instructions,
       and doctrine.

Personnel in the Office of the USD(C)/CFO informed us that they provided funding for
the SCIG to the Under Secretary of Defense (Policy) because they believed that the SCIG
was an Under Secretary of Defense (Policy) program. The Director, WHS should
conduct an independent assessment and work with the USD(C)/CFO to determine
whether the use of OASD(PA) contract services to support the strategic communication
efforts was appropriate and take appropriate actions to ensure the proper allocation of
funding and program administration responsibilities.

Strategic Communication Responsibilities. Without clearly defined strategic
communication responsibilities, DoD may appear to merge inappropriately the public
affairs and information operations functions. The OASD(PA) should only perform
strategic communication responsibilities related to its public affairs mission. The
strategic communications responsibilities for information operations should remain
separate and under the oversight of the Under Secretary of Defense (Policy).

DoD Joint Publication 3-61, “Public Affairs,” May 9, 2005, states that public affairs and
the information operations functions should directly support military objectives, counter
adversary disinformation, and deter adversary actions. The publication also states that
although public affairs and the information operations functions require planning,
message development, and media analysis, the efforts differ with respect to the audience,



                                           11
scope, and intent, and must remain separate. The publication further states that
commanders should structure their organizations to ensure the separation of public affairs
and information operations.

DoD Directive 3600.1, “Information Operations,” August 14, 2006, recognizes the need
for information operations to use public affairs products and information to communicate
military objectives, counter misinformation and disinformation, deter adversary actions, and
maintain the trust and confidence of the U.S. population. However, the directive assigns the
Under Secretary of Defense (Policy) the responsibility to establish specific policy and
oversight for the development and integration of information operations and coordinate with
the Under Secretary of Defense (Intelligence) and the ASD(PA) for establishing specific
policy and oversight for the development and integration of public diplomacy as a related
information operations capability. Assigning the DASD for Joint Communication the
responsibility for synchronizing public affairs and information operations allows for the
improper integration of these functions.

As of March 2008, the Deputy Secretary of Defense had not reauthorized the SCIG;
however, the DASD for Joint Communication continued to implement the strategic
communications initiative using contractors. On April 1, 2008, the Deputy Secretary of
Defense approved the OASD(PA) memorandum, dated February 22, 2007, requesting an
additional $900,000 for strategic communications. If the DASD for Joint
Communication is to continue strategic communications efforts, the DoD Director of
Administration and Management should update the DoD Directive 5122.5 to clearly
define this role to ensure the OASD(PA) does not assume responsibilities and functions
outside its mission, and the ASD(PA) should update the position description for the
DASD for Joint Communication. In accordance with DoD Joint Publication 3-61 and
DoD Directive 3600.1, the OASD(PA) must ensure that its strategic communications
efforts do not integrate information operations and public diplomacy support into the
public affairs mission.

OASD(PA) Director for Administration and Management
The OASD(PA) did not establish a separate office to administer and manage the
ASD(PA) budget and personnel functions. Instead, the AFIS Director for Administration
and Management managed all budget and personnel functions for OASD(PA) and AFIS.
The lack of separate offices enabled the inappropriate use of AFIS funding and personnel
for OASD(PA) programs. In addition, OASD(PA) management did not identify all of its
resource requirements in the OASD(PA) input to the OSD Budget Estimate Submission
or its manpower document. Likewise, AFIS managers should have identified resource
requirements for administering functions assigned to the AFIS Director in its Budget
Estimate Submission and manpower document. The ASD(PA) should have established
separate OASD(PA) and AFIS administrative and management offices to provide basic
enterprise services for the entities they served and should not have permitted the use of
AFIS funding and personnel to accomplish missions or programs outside of the AFIS
mission. In addition, the ASD(PA) should have properly budgeted for the resources
needed to operate the OSD-level activities, eliminating the need to use funds budgeted to
operate AFIS activities.



                                             12
OASD(PA) Budget Requirements. OASD(PA) did not conduct an adequate budget
formulation process to identify the funding requirements necessary to conduct programs
and activities at the OSD level. As an OSD-level organization, the OASD(PA) requests
funding as part of the consolidated OSD budget submission. Based on an approved
budget request, the USD(C)/CFO provides WHS with a Funding Authorization
Document, which WHS targets to the various OSD organizations to administer their
programs. The OASD(PA) FY 2007 budget submission primarily covered travel costs
and contracts for small programs but did not request the funding needed to support
programs such as America Supports You, Why We Serve, and the Joint Civilian
Orientation Conference. The FY 2007 OASD(PA) budget request and approved funding
did not include funding for the majority of OASD(PA) related costs. For example, the
FY 2007 OASD(PA) budget request only contained $267,000 for contract services,
despite awarding and administering contracts in excess of that amount. In FY 2008,
OASD(PA) increased their budget request to $900,000 for contract services; however, the
DASDs and directors identified an additional $3 million in recurring requirements that
they had not funded. Instead of requesting additional funding from the USD(C)/CFO,
OASD(PA) used funding originally budgeted for AFIS components to accomplish some
OSD-level programs without accomplishing the necessary reprogramming actions. For
example, the DASD for Internal Communications and Public Liaison was the proponent
of the America Supports You program, but did not request sufficient funding as part of
the OASD(PA) budget formulation process to run the program. The Deputy Secretary of
Defense memorandum, dated September 29, 2006, established the America Supports You
program and required AFIS to submit the budget request to fund the program. The
FY 2007 and FY 2008 AFIS budget estimate submissions did not include any request for
the America Supports You program. However, the FY 2007 Global War on Terror
Supplemental Appropriation provided AFIS with $3 million for the America Supports
You program. Personnel in the Office of the USD(C)/CFO informed us that America
Supports You program directly supports the Global War on Terror and it provided
funding to AFIS for that purpose. However, OASD(PA) administered the program at the
OSD level and used AFIS funding on several occasions to fund the America Supports
You program. For example:

   •   In February and July 2007, the Stars and Stripes contracting office issued a
       contract for the America Supports You Web site design, DefenseLINK Web site
       design, and other services using $320,650 in Stars and Stripes nonappropriated
       funds. According to DoD Instruction 1015.15, “Establishment, Management, and
       Control of Nonappropriated-Fund Instrumentalities and Financial Management of
       Supporting Resources,” October 31, 2007, an entity may only use
       nonappropriated funds for the general welfare of the military community and
       cannot use these funds for public affairs functions outside the purposes for which
       the nonappropriated fund was established. Because America Supports You was
       an OASD(PA) administered program and did not directly support the Stars and
       Stripes nonappropriated fund, Stars and Stripes should not have funded this
       contract using nonappropriated funds. Subsequently, in February 2008, AFIS
       transferred $311,650 in Defense Operation and Maintenance funds that DoD had



                                           13
       originally budgeted to support other AFIS programs to Stars and Stripes to
       reimburse it for the original contract cost.
   •   In July 2007, AFIS reimbursed Stars and Stripes an additional $1.7 million for the
       nonappropriated funds that Stars and Stripes spent on services related to the
       America Supports You program. AFIS issued a check to Stars and Stripes from
       its contingency funds. AFIS used funds requested as part of the FY 2007 Global
       War on Terror Supplemental Appropriation. Because OASD(PA) administered
       the America Supports You program, AFIS had limited assurance that OASD(PA)
       used AFIS funding appropriately.

The DASD for Internal Communications and Public Liaison also administered the Joint
Civilian Orientation Conference that DoD designed to familiarize distinguished citizens
with the Department. Although OASD(PA) has conducted this program since 1948, it
did not include funding for the conference as part of its FY 2006 through FY 2008 budget
submissions. In FY 2008, the DASD for Internal Communications and Public Liaison
directed AFIS to spend $16,635 in AFIS funding to pay for Joint Civilian Orientation
Conference planning fees. The DASD for Internal Communications and Public Liaison
also managed a speakers outreach program (Why We Serve) intended to connect the DoD
military with the public. The OASD(PA) used $122,383 in FY 2007 AFIS Operation and
Maintenance funds to pay administrative services to support the Why We Serve program.
In addition, the OASD(PA) Directorate of Community Outreach used $65,580 in AFIS
funding for a contractor to work in the Community Outreach office. Congress
appropriated funding to conduct the AFIS mission by approving the AFIS Budget
Estimate Submission. The AFIS budget did not include funding to accomplish these
OASD(PA) administered programs. Use of AFIS funding for OASD(PA) purposes
requires approval and reprogramming action from the USD(C)/CFO. Without the
approval and reprogramming actions to use AFIS funding, the OASD(PA) should not
have used AFIS funding to accomplish the OASD(PA) programs and may have
augmented its budget. The ASD(PA), in conjunction with the Director, WHS, should
perform an independent assessment and determine whether the administration of these
programs should be budgeted for using AFIS funds and whether the previous use of AFIS
funds to support OASD(PA) programs outside the direct control of the AFIS Director
was appropriate. Further, the ASD(PA) should identify funding requirements necessary
to support OASD(PA) programs not transferred to AFIS through its budget formulation
process and include the requirements in its annual budget.

OASD(PA) Personnel. The FY 2007 manpower document for the OASD(PA) did not
match the positions and number of personnel assigned to the OASD(PA) operating
directorates. The document provides the number of authorized positions to comply with
ceilings established in 10 U.S.C. 143. The manpower document should list the
OASD(PA) employees by office and align their assignment to the correct DASD or
director so that it provides a clear line of authority and accurate personnel reporting. The
manpower document, dated September 4, 2007, authorized 89 OASD(PA) positions. In
July 2007, the Special Assistant to the ASD(PA) conducted an evaluation and developed
an organizational chart showing the number of personnel assigned to each OASD(PA)
office. She determined that at least 109 Government and 31 contract employees worked



                                             14
directly for the OASD(PA). Determining how OASD(PA) assigned individuals to
positions in its manpower document was difficult. Our analysis of the organizational
chart and the manpower document showed the following.

        •   The offices in the manpower document did not align with the offices that
            physically existed within OASD(PA). For example, the manpower document
            did not include the Television and Radio Booking Office and Media
            Operations Audio Visual Division. However, these organizations existed
            before FY 2007.
        •   According to the manpower document, the DASD for Internal
            Communications was not an authorized position and the document assigned
            only one position to the DASD for Joint Communications, despite the fact that
            4 Government employees and 13 contractors worked for that office.
        •   Nine authorized work force positions did not appear as part of the
            organizational chart.6

Our analysis also showed that OASD(PA) had augmented its offices with 17 AFIS
employees and 31 contractors. The DoD Director of Administration and Management
should evaluate whether the use of AFIS employees to accomplish OASD(PA) and DoD
functions represented inappropriate augmentation of authorized OSD personnel levels.

AFIS Organizational Structure
AFIS did not have an organizational structure that ensured that AFIS would accomplish
its missions efficiently and effectively. DoD Directive 5122.10 requires the ASD(PA) to
appoint an independent AFIS Director with responsibilities for organizing, directing, and
managing AFIS, its components, and all assigned resources. The directive also requires
each AFIS component to report directly to the AFIS Director. However, several
ASD(PA)s had failed to appoint an independent AFIS Director and allowed the DASDs
to become dual-hatted as AFIS managers. This resulted in AFIS no longer having the
clear lines of authority or the segregation of duties needed to provide a positive control
environment. Commingling AFIS and the OASD(PA) operations and personnel distorted
their management structures and exposed AFIS resources to misuse. The division of
AFIS programs among the DASDs also resulted in the development of independently
operating components that lacked the centralized oversight and management needed to
effectively align and use AFIS resources. AFIS components had developed their own
enterprise services and business practices preventing management from obtaining
complete information on the requirements needed to fulfill the AFIS mission. For
example, we identified the following concerns resulting from the AFIS organizational
and management design.

    •   AFIS managers expressed concerns that the AFIS structure did not equitability
        serve their mission and that DMA would not provide equitable resourcing.


6
 Some discrepancies may have resulted from personnel actions occurring in the 2 months between the
dates of the documents.


                                                  15
       Because AFIS had two distinct missions (public affairs operations and training), it
       was imperative that each mission received equitable consideration.
   •   The Military Departments Public Affairs Chiefs expressed concerns that AFIS did
       not have sufficient expertise to administer military personnel requirements and
       that this would carry over to the new DMA structure.
   •   According to AFIS program managers, AFIS had not conducted any entity-wide
       budget formulation meetings until February 2008. The AFIS Chief Financial
       Officer should have facilitated budget formulation meetings with all program
       managers to ensure the equitable alignment of funds for fulfilling the various
       missions.
   •   Stars and Stripes management expressed concerns that the use of its contracting
       resources to support the America Supports You program may have compromised
       the independence of Stars and Stripes. In November and December 2007, the
       Stars and Stripes newspaper and the New York Times contained articles
       addressing the concerns of Stars and Stripes staff that their relationship with the
       America Supports You program could cause their readers to question their
       objectivity as an editorially independent newspaper.

We also discuss issues affected by the AFIS organizational structure in findings B, C, and
D of this report. Without a well-designed organizational structure and an independent
AFIS Director to organize, direct, and manage AFIS resources, the ASD(PA) could not
ensure that AFIS efficiently and effectively accomplished its missions. This contributed
to an overall breakdown in AFIS internal control and resource management. Because
DMA will subsume AFIS on October 1, 2008, correcting the long-standing issues are an
essential part of the transition plan.

Transitioning to the DMA
The decision to create DMA affords DoD with the opportunity to improve the
effectiveness of the organization responsible for administering the DoD public affairs
mission and programs. In December 2006, the ASD(PA) established a DMA Transition
Team to develop and manage the execution of implementation plans for establishing
DMA. This included designing an organizational structure that consolidates AFIS and
the Military Department internal communication functions into a single DoD activity.
The DMA Transition Team recognized the need for an improved organizational structure
and management design that can effectively manage DoD public affairs activities. In
December 2007, this team began the process of selecting a DMA Director and other key
management personnel. In addition, in April 2008, it issued a contract for organizational
analysis and design advisory and assistance services in support of the establishment of
DMA. Organizational elements within AFIS require consolidation and realignment to
benefit the organization as a whole. We support the need for a detailed review of the
DMA organizational and management design.

Selecting a DMA Director
DoD Directive 5105.74 establishes DMA and requires the ASD(PA) to select a DMA
Director that is a career member of the Senior Executive Service or a Flag or General
Officer military equivalent. The appointment of the new DMA Director will be essential


                                           16
to establishing a strong management structure, alleviating the concerns of the
organizations involved in the consolidation, and effectively implementing the FY 2005
Defense Base Realignment and Closure recommendations. The failure to appoint an
AFIS Director in the past caused the breakdown in the organizational control
environment, placing resources in jeopardy of potential misuse and waste. In
February 2008, DoD issued a job opportunity announcement for the DMA Director
position. The ASD(PA) should expedite the selection of the DMA Director so that the
new director can manage the DMA organizational and management design. This would
allow the new director to play an active role in evaluating the operations and business
practices of AFIS and the Military Departments’ media organizations during the
transition period and help to alleviate the concerns of the Military Departments and AFIS
managers. The DMA Director requires a strong direct reporting staff that includes a
Chief of Staff, Chief Enlisted Advisor, Directors for its operations and training missions,
a Director for Enterprise Business Services to provide centralized management of similar
business functions, and key advisors in areas such as finance, information technology,
and legal services. See Appendix C for details.

Conclusion
The OASD(PA) and AFIS did not have clearly defined organizational structures and
management responsibilities to manage the DoD public affairs mission efficiently. For
more than 7 years, AFIS has not had an independent director to provide the day-to-day
management over planning, directing, and controlling decisions. The lack of separation
of duties between policy and oversight and operations also resulted in adverse media
attention from the Stars and Stripes and non-DoD newspapers. DoD can address these
issues by establishing a strong control environment within the new DMA. With the
establishment of DMA as of January 1, 2008, DoD should select a DMA Director as soon
as possible to provide the day-to-day management needed to manage the new field
activity. As required by DoD Directive 5105.74, this new Director should be a career
member of the Senior Executive Service or a military equivalent to provide sustained
leadership. The DMA Director should consider for implementation the recommendations
of the DMA ongoing organizational analysis. The ASD(PA) and DMA Director, once
selected, should expedite the selection of key DMA managers. The DoD Director of
Administration and Management, in coordination with the ASD(PA), should reissue DoD
Directive 5122.5 to define the roles and responsibilities of the OASD(PA), including its
relationship to DMA and other DoD organizations, and update the DASD and Director
position descriptions accordingly. In defining the roles and responsibilities, the DoD
Director of Administration and Management and the ASD(PA) should ensure the
establishment of proper segregation of duties between the policy and oversight functions
administered by the office and the operational functions assigned to DMA. The
ASD(PA) should transfer programs not requiring OASD(PA) direct management to
DMA.




                                            17
Recommendations, Client Comments, and Our
Response
Redirected Recommendation
Based on comments received from the DoD Acting Deputy Chief Financial Officer, we
redirected draft Recommendation A.2. to the ASD(PA) and Director, Washington
Headquarters Services (WHS). The OASD(PA) should work with WHS to perform an
independent assessment of AFIS use of funds and personnel and the use of OASD(PA)
contract services.

A.1. We recommend that the DoD Director of Administration and Management, in
coordination with the Assistant Secretary of Defense (Public Affairs), evaluate the
current functions and programs administered by the Office of the Assistant
Secretary of Defense (Public Affairs) and define the mission and functions of the
office. Specifically,

       a. Reissue DoD Directive 5122.5 to define the roles and responsibilities of the
Office of the Assistant Secretary of Defense (Public Affairs), including the
relationship to the Defense Media Activity and other DoD organizations. In
defining the roles and responsibilities, ensure proper segregation of duties between
the policy and oversight functions administered by the office and the operational
function assigned to the Defense Media Activity. The Assistant Secretary of Defense
(Public Affairs) should transfer programs not requiring direct management by the
Office of Assistant Secretary of Defense (Public Affairs) to the Defense Media
Activity.

DoD Director of Administration and Management Comments
The DoD Acting Deputy Director of Administration and Management agreed and
stated that the Deputy Secretary of Defense signed an updated version of DoD
Directive 5122.05 (formerly DoD Directive 5122.5) on September 2, 2008, which
included proper segregation of duties between policy and oversight functions. She stated
that her staff will continue to work with the ASD(PA) and develop a recommendation for
the Deputy Secretary of Defense decision on any transfers of functions or resources
between OASD(PA) and AFIS.

Assistant Secretary of Defense (Public Affairs) Comments
The Acting ASD(PA) agreed and stated that he would work with the DoD Director of
Administration and Management to amend the DoD Directive.

Our Response
The DoD Director of Administration and Management comments are responsive. We
reviewed the updated guidance and agree that it describes the OASD(PA) relationship to




                                           18
DMA and other DoD organizations, defines the roles and responsibilities, and ensures
proper segregation of duties between the OASD(PA) policy and oversight functions and
the DMA operational functions.

The Acting ASD(PA) comments are not responsive because he did not fully address all
aspects of the recommendation. The ASD(PA) did not address the need to transfer
programs not requiring direct OASD(PA) management to DMA. The ASD(PA) should
consider transferring any recurring OASD(PA) programs, those that are not temporary in
nature or that require special administration, to DMA to ensure proper administration. As
a DoD field activity managed by OASD(PA), the DMA should have the resources and
expertise needed to ensure that all programs function according to laws and regulations
and operate effectively.

We request that the ASD(PA) provide additional comments on the final report addressing
the analysis of which recurring programs need to remain at the OASD(PA) level and
what actions he has taken to transfer other programs to DMA.

       b. Update the position descriptions of the Deputy Assistant Secretaries of
Defense and Directors within the Office of the Assistant Secretary of Defense (Public
Affairs) based on the revisions to DoD Directive 5122.5.

DoD Director of Administration and Management Comments
The DoD Acting Deputy Director of Administration and Management disagreed and
stated that the OASD(PA) Director for Administration and Management indicated that
the DASDs and Directors had current and accurate position descriptions.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated his office is reviewing the position descriptions
and should complete the review by the end of the first quarter, FY 2009.

Our Response
The DoD Director of Administration and Management and ASD(PA) comments
contradict each other. We do not agree with the DoD Acting Deputy Director of
Administration and Management that the position descriptions are current and accurate.
Our review showed that several DASD position descriptions contained major
responsibilities that belong to the DMA Director.

We request that the ASD(PA) coordinate with the Director, WHS and update the DASD
and Director position descriptions to ensure that they include the policy and oversight
functions found in DoD Directive 5122.05 and exclude the functions that should belong
to the DMA Director.

We request that the DoD Director of Administration and Management and ASD(PA)
provide additional comments on the final report.




                                           19
       c. Reevaluate the Authorized Manpower Requirements and Alignment
Document and the budget requirements of the Office of Assistant Secretary of
Defense (Public Affairs) and include these requirements as part of the annual Office
of Secretary of Defense budget formulation process.

DoD Director of Administration and Management Comments
The DoD Acting Deputy Director of Administration and Management agreed and stated
that her office has been working closely with the ASD(PA) Director of Administration
and Management to re-baseline current personnel information against the authorized
OASD(PA) manpower allocations and the established organizational structure.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that the review process has begun.

Our Response
The DoD Director of Administration and Management and ASD(PA) comments are
responsive. No further comments are required.

A.2. We recommend that the Assistant Secretary of Defense (Public Affairs), in
conjunction with the Director, Washington Headquarters Services, perform an
independent assessment and determine whether:

       a. the use of American Forces Information Service appropriated funding
and personnel to support Office of Assistant Secretary of Defense (Public Affairs)
administered programs augmented the Office of the Secretary of Defense (Public
Affairs) budget in violation of public law, and

       b. the use of Office of Assistant Secretary of Defense (Public Affairs)
contract services to support the strategic communication efforts was appropriate.
Take appropriate actions to ensure the proper allocation of funding and program
administration responsibilities.

USD(C)/CFO Comments
The Acting Deputy Chief Financial Officer partially agreed and stated that an
independent assessment must be performed. However, he stated that we should address
the recommendation to WHS. WHS is the administrator of OASD(PA) funding.

Our Response
Based on the Acting Deputy Chief Financial Officer comments, we have redirected
Recommendation A.2. to the ASD(PA) and Director, WHS. The OASD(PA) should
work with WHS to perform an independent assessment of AFIS use of funds and
personnel and the use of OASD(PA) contract services.

We request that the ASD(PA) and Director, WHS provide comments in response to the
final report.


                                         20
A.3. We recommend that the Assistant Secretary of Defense (Public Affairs):

       a. Identify the funding requirements necessary to support Office of Assistant
Secretary of Defense (Public Affairs) programs and include the requirements in its
annual budget.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that the OASD(PA) has completed a Lean Six
Sigma project on the budget process within OASD(PA). Based on the project, the
OASD(PA) made budget process changes in August 2008. He also stated that his office
has made significant progress in correcting funding shortfalls by working with WHS and
the USD(C)/CFO.

Our Response
The ASD(PA) comments are responsive. No further comments are required.

        b. Expedite the selection of key managers within the Defense Media Activity
to include the Director, Defense Media Activity and the direct reporting staff.
Based on the organizational study, consider hiring a Chief of Staff, Chief Enlisted
Advisor, Directors for the operations and training missions, a Director for
Enterprise Business Services, and key advisors in such areas as finance, information
technology, and legal services.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that he has already filled several key DMA
positions and the selection process is underway for other positions. Several others are
pending a review of position descriptions and completion of the organizational design
study. He also stated that this report will help guide decisions on the DMA
organizational structure. DMA management will make decisions on the transitional and
final organizational structures for DMA in the first quarter, FY 2009.

Our Response
The ASD(PA) comments are responsive. Although the comments did not directly
address the DMA Director position, the DMA Deputy Director/Chief of Staff reported to
DMA in June 2008. No further comments are required.




                                           21
22
Finding B. AFIS Personal Property
Accountability and Safeguarding
AFIS had not implemented an effective entity-wide personal property program that
ensured proper accountability and safeguarding of its assets and provided managers with
the information needed to make informed decisions. As a result, AFIS had inaccurate
accountability records and reported the loss of almost $650,000 in personal property
assets. Because AFIS will consolidate into the new DMA on October 1, 2008, the
ASD(PA) must take actions to implement DoD personal property guidance by:

    •   appointing, in writing, an accountable property officer (APO) to implement an
        entity-wide program by assigning custodial areas and appointing property
        custodians;
    •   inventorying, reconciling, and consolidating personal property into a single
        Defense Property Accountability System (DPAS) database;
    •   developing and implementing DMA personal property operating procedures to
        include designation of centralized receiving points for all DMA deliveries;
    •   controlling access to equipment storage facilities; and
    •   establishing the personal property accountability threshold, developing standard
        procedures for inventories, and establishing a single bar coding methodology.

The USD(C)/CFO should direct and monitor an ASD(PA) investigation into potential
waste and mismanagement of AFIS personal property and take actions to determine any
financial liability or disciplinary actions for lost assets.

DoD Instruction 5000.64 Requirements
DoD Instruction 5000.64, “Accountability and Management of DoD-owned Equipment
and Other Accountable Property,” November 2, 2006, requires the DoD Components, to
develop an entity-wide program for managing personal property items.7 DoD
Instruction 5000.64 delineates the requirements for managing accountable personal
property items from acquisition to disposal. DoD Instruction 5000.64 requires the head
of each DoD Component to:

    •   establish an integrated accountable property system;
    •   implement personal property guidance and procedures;
    •   appoint, in writing, an APO for the entire organization; and
    •   ensure that all individuals entrusted with Government property are aware of their
        responsibilities for proper care and stewardship.




7
  DoD Instruction 5000.64 defines DoD Components as the OSD, Military Departments, Chairman of the
Joint Chiefs of Staff, Combatant Commands, DoD Office of Inspector General, Defense agencies, and DoD
field activities.


                                                 23
Implementing the DoD Property Management Program
AFIS had not implemented an effective personal property program to ensure centralized
management and oversight over its entity-wide accountability. AFIS established AFIS
Operating Procedure – 0022, “Property Management and Accountability,” November 30,
1994, to provide AFIS Headquarters and its components guidance on responsibilities to
account for and control personal property. Operating Procedure – 0022 allowed AFIS
components to implement their own programs, which resulted in establishing different
personal property accountability procedures and insufficient oversight over the AFIS-
wide acquisition of personal property items. The operating procedure was also outdated
and did not include all of the DoD Instruction 5000.64 requirements. AFIS managers
failed to recognize that AFIS was an independent DoD Component governed by DoD
Instruction 5000.64. They also mistakenly used other DoD Components’ personal
property guidance, such as Army regulations and WHS Administrative Instruction
No. 94, “Personal Property Management and Accountability,” October 19, 2007, to
establish and guide its personal property program. As a DoD Component, AFIS
should have implemented the requirements in the November 2006 update to DoD
Instruction 5000.64 and revised AFIS Operating Procedure – 0022 accordingly. This
would provide AFIS managers with the oversight needed to maintain accountability and
assist them in making informed decisions. By not implementing all of the DoD
Instruction 5000.64 requirements, AFIS lacked:

       •   entity-wide oversight by an APO,
       •   a consolidated personal property database for decision making,
       •   a consistent personal property accountability threshold,
       •   an effective physical inventory process,
       •   adequate safeguards over personal property,
       •   hand receipting procedures that ensured proper accountability over personal
           property, and
       •   clearly defined and separated personal property roles and responsibilities.

Accountable Property Officer. AFIS lacked entity-wide oversight of its personal
property program because AFIS management did not appoint an APO to manage all
AFIS accountable items. The APO is the individual, based on training, knowledge, and
experience in property management, who establishes and maintains personal property
accountability within an organization. AFIS managers considered appointing an APO for
all of AFIS. However, they decided that the number of personal property items and
geographical distance between locations prevented them from appointing one. Instead,
they permitted each AFIS component to appoint its own APO, which resulted in seven
independent personal property programs. This also resulted in AFIS failing to determine
the appropriate number of custodial areas throughout AFIS and appoint property
custodians for each area to provide stewardship of personal property items in those areas.
This arrangement did not provide the needed oversight over all AFIS personal property to
detect the potential for fraud, waste, or abuse. The ASD(PA) should appoint a single
APO to administer the program, who could then ensure the appropriate number of
property custodians for designated custodial areas to assist in managing the overall



                                           24
program. This would allow the APO to delegate the day-to-day custody of assets to
custodians within the AFIS components while maintaining overall control of the
AFIS-wide program. Failure to establish this level of control led to the loss and
mismanagement of AFIS assets.

Personal Property Accountability System. AFIS did not develop a consolidated DPAS
database for managing its accountable personal property. Instead, as of February 27,
2008, nine AFIS components maintained seven separate DPAS databases to manage
more than 37,000 items, valued at $81 million. A consolidated database would have
permitted AFIS managers to integrate the accountability data with AFIS acquisition,
financial, and logistics systems and assist the managers in making decisions concerning
future requirements. A consolidated database would have also provided AFIS managers
with better information to ensure the completeness and accuracy of personal property
information and to safeguard personal property items. The table shows the seven unique
DPAS databases by site identification code and location.

                       Personal Property Located at AFIS Components
                              by DPAS Site Identification Code
 Site Identification                                                Unit Identification   No. of
        Code               Location          Component                     Code           Items
 DI-HQ                 Alexandria,     AFIS-Headquarters            HQ0012                 3,913
                       Virginia
 DI-TOBY               Tobyhanna,      Joint Visual Information     DDAAJB                   225
                       Pennsylvania    Service Distribution
                                       Agency
 DI-AFISP              Tokyo, Japan    Stars and Stripes: Pacific   W0D1AA                 7,025

 DI-AFISC              Washington,     Stars and Stripes: Central   W98CSS                   506
                       District
                       of Columbia
 DI-AFISE              Griesheim,      Stars and Stripes: Europe    W81F25                 2,855
                       Germany
 DI-DIS                Ft. Meade,      DINFOS                       W46L05                14,100
                       Maryland
 DI-DVIC               Riverside,      DMC                          HQ0030                 7,393
                       California
                                       Defense Visual               HQ0029                 1,076
                                       Information Center
                                       Television-Audio             HQ0028                   218
                                       Support Activity
  Total                                                                                   37,311


DoD Instruction 5000.64 requires that personal property records contain specific data
elements, such as bar code, name, part number, description, owner, status, quantity,



                                             25
estimated useful life, and location. As of February 27, 2008, we compared the databases
and determined that AFIS did not use consistent nomenclature to identify items, such as
computers, or did not use a single bar coding methodology to establish accountability.
As a result, AFIS managers could not easily identify the total number of computers that
AFIS owned, making resource allocations and future purchase decisions difficult. In
addition, the AFIS components used multiple bar coding methodologies for controlling
assets. This resulted in 739 items receiving non-unique bar codes, making it difficult to
establish accountability over the items. In June 2007, one AFIS component (AFRTS)
issued a $264,000 contract to test a new bar coding methodology using Radio Frequency
Identification. AFRTS reported success using the new bar coding methodology. As
AFIS components and Military Department media activities transition to the DMA, the
DMA Director should take steps to establish a consolidated DPAS database using a
single bar coding methodology. Because the Federal Government is moving toward the
use of Radio Frequency Identification, DMA should consider this methodology for
enterprise-wide use.

Accountability Threshold. AFIS managers established a personal property
accountability threshold that was significantly less than the DoD accountability threshold.
DoD Instruction 5000.64 requires accountable property records for all items purchased
with an acquisition cost of $5,000 or more, leased assets, and assets that are sensitive or
classified. DoD Component managers may establish additional criteria to maintain
accountable property records for items below the threshold such as pilferable property,
hazardous property, small arms, seized and confiscated property, and heritage assets.
AFIS Operating Procedure – 0022 established a $300 personal property threshold.
However, several AFIS components implemented a $500 threshold to comply with WHS
Administrative Instruction No. 94. AFIS management could not provide justification for
establishing a lower accountability threshold and had not developed a detailed listing of
the types of items individually valued below the threshold that required accountability.

We observed that AFIS had many items, such as cameras, televisions, and camcorders
that a reasonable person would consider pilferable. However, each AFIS component
independently decided what it considered pilferable. AFIS Operating Procedure – 0022
should have established a detailed list of items management considered as pilferable
items requiring accountability and implemented this requirement consistently across the
organization. For example, AFIS Headquarters recorded 237 laptop computer docking
stations, valued at $48,300 (average cost $203.80), because it determined this item to be
pilferable. On the other hand, DINFOS recorded only one of its laptop computers
docking stations in DPAS because it exceeded $500. If AFIS managers determined that
certain or all types of docking stations required DPAS accountability, then all AFIS
components should have recorded them. AFIS components inconsistently accounted for
34,430 DPAS items below the $5,000 threshold and may have unnecessarily expended
resources to manage them. The DMA Director should rescind AFIS Operating
Procedure – 0022 and develop DMA guidance for managing and accounting for personal
property. The DMA operating procedure should incorporate the DoD accountability
threshold and list the items below that threshold that management determines require
accountability.



                                            26
AFIS Stewardship Responsibility. AFIS Headquarters did not maintain proper
stewardship over personal property items. The APO assigned to AFIS Headquarters
failed to conduct required physical inventories, establish consistent accountability
controls, and ensure the proper safeguarding of assets. We reviewed the AFIS
Headquarters and DINFOS personal property programs and identified two very different
programs with divergent philosophies for implementing stewardship responsibilities.8
DINFOS implemented a strong program that ensured personal property accountability.
Conversely, AFIS Headquarters lacked proper oversight over its personal property
program, which limited accountability over its $12.6 million in personal property and
resulted in the loss of almost $650,000 in personal property.

        Physical Inventory. AFIS components had not conducted adequate periodic
physical inventories of their personal property. DoD Instruction 5000.64 required the
APO to properly plan and execute physical inventories at least every 3 years or each time
there was a transfer of a property account from one accountable official to another. The
APO should also have directed a joint physical inventory whenever a component changed
its property custodian. Our review showed that DINFOS conducted effective physical
inventories when transferring accountability between accountable officials. In addition,
documentation supporting the DINFOS inventory process indicated that DINFOS
personnel effectively planned and accomplished inventories every 3 years. Conversely,
we determined that in at least three instances between January 2006 and January 2008,
AFIS Headquarters had not conducted joint physical inventories when changing its
accountable officials. For example, in June 2007, the AFIS Headquarters APO did not
conduct a 100-percent joint physical inventory before his departure with either his
successor or the property custodians. Instead, he conducted the inventory by himself and
subsequently provided a DPAS hand receipt inventory report and requested a signature
form each custodian attesting to the completeness of the inventory. However, the
custodians refused to sign the hand receipt inventories because they had not participated
in the inventory and needed to validate the results. As of March 31, 2008, 3 of the
17 custodians still had not attested to the completeness of that inventory. In addition,
neither the interim APO nor the new APO at AFIS Headquarters conducted a 100-percent
inventory when they assumed responsibility for the AFIS Headquarters account in
June 2007 and January 2008, respectively. The nine DPAS databases indicated that as of
February 27, 2008, AFIS had 14,538 items, valued at $30.7 million, which its
components had not inventoried since at least October 1, 2004.

        In December 2007, we attempted to validate the existence of AFIS Headquarters
and DINFOS accountable property by conducting a physical inventory. We randomly
selected 90 DINFOS personal property items and were able to locate all 90 items. Our
results confirmed our initial assessment that DINFOS inventory controls were in place
and operating. At AFIS Headquarters, we conducted a 100-percent inventory of all AFIS
Headquarters personal property, except those receipted to AFRTS. For AFRTS, we


8
  AFIS Headquarters was responsible for the personal property program for all AFIS activities located in
the Pentagon and in the AFIS building in Alexandria, Virginia. The DINFOS personal property program
covered organizations assigned to the school located at Fort Meade, Maryland.


                                                   27
compared the information in DPAS with a December 2007 inventory list developed by
the contractor that AFRTS had hired to design and install a Radio Frequency
Identification system on AFRTS personal property. Based on our inventory and
comparison of AFRTS information, we identified the following discrepancies.

   •   AFIS Headquarters personnel could not locate 172 items, valued at $280,775, at
       the locations specified in DPAS. As of February 21, 2008, AFIS Headquarters
       personnel informed us that they had located 161 of the 172 items and prepared a
       DD Form 200, “Financial Liability Investigation of Property Loss,” to write-off
       the remaining 11 items, totaling $23,000.
   •   The Radio Frequency Identification contractor identified 778 AFRTS items with
       AFIS bar codes, but no DPAS record. The items included a 42-inch plasma
       monitor, laptop computers, clocks, and cameras. In other AFIS Headquarters
       offices, we identified an additional 73 items with bar codes that AFIS had not
       recorded in DPAS. AFIS Headquarters personnel could not explain why these
       items did not have a DPAS record.
   •   The Radio Frequency Identification contractor also identified 639 items that did
       not have bar codes. Some of these items, such as a 40-inch plasma monitor,
       computer, and color copier, would have required DPAS accountability and bar
       coding. However, at the time of our inventory, AFIS managers still had not
       assessed how many of these items required accountability or determined why
       AFIS had not recorded the assets in DPAS.

        Establishing Accountability. The APO assigned to AFIS Headquarters was
inconsistent in determining which items required accountability. AFIS Headquarters did
not have adequate controls to ensure that the APO assigned a bar code and hand receipted
the items to the proper individual or custodian when distributing accountable items.
DINFOS had a centralized receiving dock for all deliveries and established effective
procedures to receive, bar code, and establish a DPAS record. Upon receipt of
accountable property at the dock, the DINFOS custodian assigned bar codes and
established the DPAS records. However, AFIS Headquarters personnel did not establish
similar procedures. Instead, they had a receiving process for incoming deliveries that
sometimes allowed AFIS employees to direct vendors to deliver the property to locations
other than a centralized location. By doing so, they bypassed the property accountability
process. In addition, AFIS Headquarters permitted multiple individuals to maintain and
assign bar codes without ensuring that they also established the required DPAS records.
AFIS should ensure that proper accountability procedures are in place and operating and
that DPAS information accurately reflects AFIS accountable assets.

        Safeguarding Assets. AFIS Headquarters did not adequately safeguard its
personal property from theft, unauthorized access, or damage. Government
Accountability Office Report No. 00-21.3.1 states that an agency must establish physical
controls to secure and safeguard vulnerable assets. Although there was a security guard
in the main lobby of the AFIS Headquarters building and AFIS Headquarters used one or




                                           28
more security measures such as Kastle card readers, security cameras, and alarm systems
to protect the main entry of each office area, AFIS Headquarters could have taken
additional measures to safeguard its personal property. For example,

   •   We found two storage areas with lockable doors that were unsecured. One area
       contained 151 laptop computers, valued at approximately $225,000, and the other
       contained 40 computer monitors. The Information Resource Management
       employee who signed the hand receipt for this personal property should have
       maintained controlled access to the storage areas. Although the main entrance to
       the area required a security access card for entry, any AFIS employee, contractor,
       or visitor could gain access to these storage areas once within that main area. In
       addition, there was a security camera to help detect problems, but the camera fed
       to a video screen that AFIS did not monitor continuously. Although these
       security measures were in place, they would not prevent someone from obtaining
       unauthorized access to the personal property or stealing it. After our review,
       AFIS Headquarters took actions to relocate this personal property to more secure
       areas.
   •   We observed throughout the AFIS Headquarters building numerous unsecured
       laptop computers. AFIS Headquarters policy was to account for all laptop
       computers as pilferable items. However, physical controls would not prevent an
       individual from pilfering a laptop computer once inside the main building entry.
       AFIS Headquarters did not require the use of locking mechanisms to secure the
       laptop computers to workstations.

        In addition, AFIS Headquarters had a computer server room with cooling
problems. On two separate occasions, months apart, we observed AFIS Headquarters
personnel using portable cooling units and fans to prevent equipment from overheating.
AFIS purchased the fans after temperatures reached 94 degrees in the room. However,
even with the portable cooling units and fans, the temperature levels in the room
remained high. The Chief of the Logistics and Operations Office agreed with our
assessment regarding the temperature problem and stated that AFIS was concerned that
the high temperature would reduce life expectancy of equipment. In January 2008, AFIS
Headquarters took initial steps to address the high temperature in the computer server
room by consulting with an engineering firm to improve the building air conditioning.
However, until they install dedicated air conditioning units to cool the server room or
take other appropriate actions, the problem will continue. Figure 2 shows a picture of the
fans cooling equipment in the server room.




                                           29
                      Figure 2. Fans Cooling Server Equipment

         Preventative measures such as the use of locks, limited access, and proper heating
and ventilation are essential to safeguard personal property. These controls help prevent
theft, loss, and damage of personal property items. AFIS should secure personal property
storage areas, limit access to storage areas to only authorized personnel, and install
proper heating and air conditioning units in the server room.

         Maintaining Personal Property Accountability. AFIS did not consistently
issue and maintain personal property hand receipts or conduct the appropriate
investigations when property was lost, missing, or misused. DoD Instruction 5000.64
states that the APO should ensure the issuance of custody receipts or similar documents
for all property assigned to an individual or organization to provide accountability and
establish financial liability. Although both AFIS Headquarters and DINFOS attempted to
hand receipt accountability to custodians, neither had consistently hand receipted all
personal property to the end users. DINFOS hand receipted personal property to
students, but did not always hand receipt laptop computers and other individual personal
property to its employees. The AFIS Headquarters APO stated that he attempted to hand
receipt all personal property to a custodian in each division. However, we identified at
least three divisions where the property custodians had not signed for the personal
property. AFIS Headquarters also gave many personal property items such as laptop
computers and cameras to individuals to use in both the workplace or at home without
obtaining hand receipts from the individuals. For example, we identified at least
96 items, valued at $123,000 that individuals had taken home without signing a hand
receipt. Without issuing and maintaining hand receipts, AFIS assumed significant risk
for lost personal property. For example, between May and September 2007, AFIS
Headquarters wrote-off more than $625,000 in personal property that could not be
located during physical inventories. The lost items included televisions, cameras, and


                                            30
video recorders that an individual could easily convert to personal use. Upon completion
of the inventory, the AFIS APO provided each custodian a list of missing items and
required them to either locate the items or process a DD Form 200 to report the items as
missing. The custodians completed the forms because they could not locate the lost
items. DoD FMR, volume 12, “Special Accounts Funds and Programs,” chapter 7,
“Financial Liability for Government Property Lost, Damaged, Destroyed, or Stolen,”
March 2007, requires managers to conduct an inquiry or formal investigation when
property is lost, damaged, or destroyed to determine whether negligence or financial
liability existed. AFIS managers told us that they did not conduct an inquiry or a formal
investigation. Investigating culpability ensures that individuals are accountable for the
personal property entrusted to them and encourages proper care and stewardship. Since
AFIS considered many of the missing items pilferable, the ASD(PA) needs to conduct
report of survey investigations of all lost or missing property occurring at AFIS to
determine whether individual liability exists. Once completed, the ASD(PA) should
coordinate with the Office of Secretary of Defense to obtain concurrence as to whether
individual liability exists. In addition, the APO should hand receipt organizational
personal property, such as copiers, printers, and teleconference equipment to the property
custodians, and personal property intended for individual use to the individual users.

Separation of Duties. AFIS did not clearly define and separate the roles and
responsibilities for purchasing, receiving, and maintaining accountability for personal
property. AFIS should segregate these key duties and responsibilities among different
people to reduce the risk of error or fraud. During the audit, we determined that:

   •   For approximately 5 months, the interim AFIS Headquarters property custodian
       was also a Government purchase cardholder who purchased, received, and
       accounted for incoming property. In late November 2007, the Army Contracting
       Center for Excellence contracting representative learned of the situation and
       instructed the property custodian to stop making purchases while performing
       property accountability functions.
   •   The AFIS Headquarters’ Information Resources Management Operations
       Manager purchased and received computer equipment, assigned and applied bar
       codes, entered DPAS information, and hand receipted personal property. This
       individual had total control over 1,023 accountable items valued at more than
       $3 million as of February 2008. In January 2008, AFIS Headquarters hired a new
       property custodian who began making needed changes to the processes for
       assigning and applying bar codes to personal property and entering information
       into DPAS. This is a step in the right direction, but AFIS must also ensure that
       one individual cannot purchase, receive, and account for personal property.

In addition, AFIS had not developed controls for determining whether items purchased
required accountability and ensuring that receiving personnel informed the APO of
personal property deliveries. Ideally, all personal property should pass through a
centralized receiving area where personnel can properly receive the item and, if required,
allow the APO to enter accountable property information in DPAS before hand receipting
the property to the individual requesting it. DINFOS had clearly defined these roles and


                                            31
responsibilities within its receiving and property accountability areas. However, a similar
process was not evident at AFIS Headquarters where AFRTS had assets delivered
directly to the individuals requesting the items and to offsite locations. As a result, the
APO could not ensure AFIS personnel bar coded all personal property and accounted for
it upon receipt. In addition to the previously discussed problems identified by the
AFRTS Radio Frequency Identification contractor, we identified approximately
249 items, valued at $420,635, that AFRTS had a vendor ship directly to a Fort Belvoir,
Virginia, warehouse that the APO had not bar coded and recorded in DPAS.

Conclusion
AFIS did not ensure the proper accountability and adequate safeguarding of AFIS
personal property from theft, misuse, and damage. AFIS did not establish a consolidated
DPAS database, provide centralized oversight, and issue entity-wide policies over AFIS
personal property. AFIS should have appointed an APO to administer the AFIS-wide
program and then identified custodial areas and appointed property custodians to manage
property accountability. Without an effective AFIS-wide program, AFIS could not
provide the management and oversight needed to properly manage and maintain personal
property accountability and make informed purchasing decisions. As a result, we found
unsecured personal property, inaccurate accountability records, and inefficient and
ineffective use of AFIS resources.

With the transition of the AFIS components to DMA, the DMA Director and managers
need to develop a sound program that will provide them positive control over personal
property. This program should implement the requirements of DoD Instruction 5000.64
by consolidating accountability into a single DPAS database controlled by an APO
responsible for the entire organization. To ensure that AFIS transfers personal property
correctly to DMA, OASD(PA) managers need to accomplish a 100-percent inventory of
all AFIS personal property and reconcile the results with their DPAS accountable
records. Furthermore, the USD(C)/CFO should direct the initiation of investigations into
potential financial liability for lost assets written-off in FY 2007.

Recommendations, Client Comments, and Our
Response
Revised Recommendation
As a result of comments from the Acting Deputy Chief Financial Officer, we revised
draft Recommendation B.1. to clarify the intent of the recommendation.

B.1. We recommend that the Assistant Secretary of Defense (Public Affairs)
conduct a report of survey investigation of all lost or missing property occurring at
American Forces Information Service based on recent inventories and determine
whether any individual liability exists. Coordinate the results of the investigation
and the determination of individual liability with the Office of the Secretary of
Defense and other interested parties.




                                            32
USD(C)/CFO Comments
The Acting Deputy Chief Financial Officer agreed and stated that a report of survey
investigation should be conducted; however, he stated that the ASD(PA) should work
with WHS to complete the survey.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that he has processed a DD Form 200, “Financial
Liability Investigation of Property Loss,” for all lost property at AFIS Headquarters.
However, due to the extent of the property accountability issues and the inability to rely
on the accountability records, he could not assess individual liability. He stated that
processing the DD Form 200 established a baseline for assigning equipment to DMA and
holding individuals and managers accountable for future losses.

Our Response
The USD(C)/CFO comments are responsive. However, we did not agree that we should
redirect the recommendation to WHS. After subsequent discussions with representatives
of the Office of the USD(C)/CFO, we determined that the ASD(PA) should coordinate
the results of the report of survey investigation with the Office of the Secretary of
Defense because it has jurisdiction over AFIS. Therefore, we did not redirect
Recommendation B.1. to WHS. Instead, we revised the recommendation to clarify its
intent.

The ASD(PA) comments are only partially responsive because they do not fully address
the recommendation. The recommendation applies to all of AFIS, not just AFIS
Headquarters. The ASD(PA) comments did not address the need to conduct report of
survey investigations of all lost or missing personal property within AFIS. Once
completed, the ASD(PA) should coordinate the results with the Office of the Secretary of
Defense and other interested parties, including the Office of the USD(C)/CFO and the
Office of General Counsel, to obtain concurrence as to whether financial liability exists.

We request that the ASD(PA) reconsider his position and provide additional comments
on the revised recommendation in response to the final report. The additional comments
should address the need to include lost or missing personal property from all AFIS
organizations, including those outside its headquarters, as part of the report of survey
investigation; and coordinating the results with the Office of the Secretary of Defense and
other interested parties.

B.2. We recommend that the Assistant Secretary of Defense (Public Affairs) direct
the Defense Media Activity to implement DoD Instruction 5000.64. Specifically:

      a. Appoint, in writing, an Accountable Property Officer for the Defense
Media Activity. This individual should assign custodial areas within the Defense
Media Activity and appoint property custodians, in writing, for each custodial area.




                                            33
ASD(PA) Comments
The Acting ASD(PA) agreed and stated that the DMA will appoint, in writing, APOs for
the elements of the Military Services and AFIS by December 31, 2008.

Our Response
The ASD(PA) comments are partially responsive. The Acting ASD(PA) did not address
the need for APOs to assign custodial areas and appoint property custodians. In addition,
instead of appointing a single APO for DMA who would appoint property custodians for
assigned custodial areas within DMA, the Acting ASD(PA) stated that DMA will appoint
multiple APOs, each responsible for specific command areas. Based on the ASD(PA)
comments on the other B.2. recommendations, the APOs will function under an
overarching property accountability system monitored at the DMA Headquarters by the
DMA Chief of Logistics. Placing the APOs under the DMA Chief of Logistics gives one
individual ultimate responsibility for ensuring the proper execution of the DMA personal
property program. This will meet the intent of the recommendation.

We request that the ASD(PA) provide additional comments on Recommendation B.2.a.
to address the need for APOs to assign custodial areas and appoint property custodians.

       b. Conduct a 100-percent inventory of AFIS accountable personal property
and reconcile the results with the personal property accountability records in the
Defense Property Accountability System to ensure the accuracy and completeness of
the information.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that DMA will conduct a 100-percent physical
inventory of AFIS Headquarters property and reconcile the results with the property
accountability system.

Our Response
The ASD(PA) comments are partially responsive. The Acting ASD(PA) addressed
conducting a 100-percent physical inventory of accountable personal property only at
AFIS Headquarters. He did not address conducting a 100-percent physical inventory of
accountable personal property assigned to other AFIS entities. We request the ASD(PA)
provide additional comments on the final report to address conducting a 100-percent
inventory at AFIS subordinate organizations and reconciling the results with the property
accountability system.

        c. Consolidate all American Forces Information Service and Military
Department personal property records transferring to the Defense Media Activity in
a single Defense Property Accountability System database.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that DMA will create a single DPAS Site ID to
manage all DMA personal property.


                                           34
Our Response
The ASD(PA) comments are responsive. No further comments are required.

      d. Limit access to personal property storage areas to only authorized
personnel and properly air condition the server room.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that DMA has taken actions to restrict access to
personal property storage areas and to properly air condition the server room.
Specifically, he stated that AFIS Headquarters has relocated equipment previously stored
in unsecured areas to a restricted storage area and adjusted the temperature of the supply
air in the server room which has reduced the temperature in the space. A completed
engineering analysis has identified additional recommendations to address the
temperature problem in the server room.

Our Response
The ASD(PA) comments are responsive. No further comments are required.

       e. Develop Defense Media Activity guidance for managing personal property
and rescind the American Forces Information Service Operating Procedure – 0022,
“Property Management and Accountability.” This new guidance should:

               (1) Designate centralized receiving points for Defense Media Activity
deliveries.

              (2) Establish the personal property accountability threshold
consistent with DoD guidance, and identify pilferable and other items requiring
accountability that do not meet the accountability threshold.

               (3) Develop standard procedures for custodial areas to use during
inventory testing, and track compliance to ensure the custodial areas conduct
inventories timely and accurately.

             (4) Establish a single bar coding methodology for identifying personal
property accountable items. Consider using radio frequency identification as the
bar coding methodology.




                                            35
ASD(PA) Comments
The Acting ASD(PA) concurred and stated that DMA will issue an Operating Instruction
for entity-wide management of personal property by November 30, 2008. The new
guidance will designate centralized receiving points for all personal property, establish an
accountable personal property threshold, identify accountable personal property below
the threshold, develop standard procedures for physical inventory testing and tracking,
and establish a standard bar coding methodology. After issuing the new guidance, the
ASD(PA) will rescind AFIS Operating Procedure – 0022.

Our Response
The ASD(PA) comments are responsive. No further comments are required.




                                            36
Finding C. AFIS Acquisition Process
AFIS did not properly manage and oversee its acquisition process to ensure that
purchases were necessary, were properly documented, and complied with legal
requirements. As a result, AFIS may have violated fiscal law and spent about $940,000
that they could have used to fulfill unfunded requirements of its components. The
ASD(PA), in conjunction with the Director, Defense Logistics Agency, should review
AFIS contracting authority and processes. The ASD(PA) should implement controls over
the AFIS purchasing and contracting practices, train personnel on contracting
requirements, and take necessary disciplinary actions for individuals involved in
inappropriate contracting actions. The ASD(PA) also must investigate, in conjunction
with the USD(C)/CFO, whether AFIS purchases fulfilled valid requirements.

Budgetary Resources
Each year, AFIS submits to Congress a budget estimate through the USD(C)/CFO to
request funding for specific purposes and times. Once approved, AFIS should only use
these funds for the purposes that Congress appropriated them in accordance with
31 U.S.C. 1301, referred to as the Purpose Statute. The Government Accountability
Office publication (Red Book), “Principles of Federal Appropriations Law,”
January 2004, provides interpretation of 31 U.S.C. 1301. To determine whether an
expense fulfills the purpose of an appropriation, the GAO Red Book issued the Necessary
Expense Test, which states that:

   •   the expenditure must bear a logical relationship to the charged appropriation;

   •   the expenditure must not be prohibited by law; and

   •   the expense must not be an item within the scope of another appropriation or
       statutory funding scheme.

Once approved, an entity should only use appropriated funds to pay expenses properly
incurred during the period of availability or to complete contracts within that period in
accordance with 31 U.S.C. 1502. The GAO Red Book incorporates this statute in the
Bona Fide Needs Rule, which states that an entity may obligate a fiscal year
appropriation only to meet a legitimate need arising in, or in some cases arising before
and continuing in, the fiscal year for which the appropriation was made.

In the FYs 2005 and 2006 Budget Estimate Submissions, AFIS requested $20.3 million
in Defense Procurement funds for FY 2005 through FY 2007 to provide the capital
investment funding for:

       •   part of the multi-year initiative for the automation of major portions of DMC
           operations;
       •   normal life cycle replacement of several information technology systems;



                                             37
        •    replacement of several analog systems with digital technology in support of
             DMC and DINFOS;
        •    a system to support the upgrade and sustainment of the consolidated
             operations of the Office of the Secretary of Defense Publicly Accessible Web
             Sites Program; and
        •    a system to support the improved storage, management, and distribution of
             DoD imagery and visual information products.

In the FYs 2005 and 2006 Budget Estimate Submissions, AFIS also requested
$272.6 million in Defense Operation and Maintenance funds, including about
$139.2 million to purchase equipment and contract for items. Personnel in the Office of
the USD(C)/CFO administered these appropriations and established administrative
controls as part of its Defense-wide appropriation. AFIS is responsible for spending and
tracking the funds and providing appropriate training to its financial managers and
program managers on fund control. In Program Budget Decision No. 704,
“Defense-Wide Issues,” December 12, 2006, DoD reduced AFIS funding for FY 2008
major equipment procurement by $3.6 million, citing 3 consecutive years of low
first-year obligation rates.

AFIS Acquisition Process
AFIS did not effectively manage and oversee its acquisitions of goods and services. The
acquisition process should begin at the point when an AFIS component establishes its
needs and include the description of the requirements to satisfy those needs. The AFIS
contracting office and the assigned technical representatives should oversee the
solicitation and selection of sources, award of contracts, contract financing, contract
performance, contract administration, and those technical and management functions
directly related to the process of fulfilling these needs. The AFIS acquisition process was
not effective because AFIS lacked sufficient oversight and management over its
Government purchase card program and acquisition planning process and did not ensure
that personal property purchases were properly justified and documented.

Oversight and Management of the Acquisition Process
AFIS lacked sufficient oversight and management of its Government purchase card and
contracting programs. The AFIS Chief of Contracting managed the contracting office
and served as the program coordinator for the AFIS Government purchase card program
hierarchy.9 However, the AFIS Chief of Contracting could not effectively manage the
Government purchase card program and administer effective oversight over AFIS
components purchases because she had limited visibility over what AFIS components
purchased.

Government Purchase Card Program. The AFIS Government purchase card program
did not provide for agency-wide oversight and was governed by outdated guidance that


9
 Government purchase cards use hierarchies to identify the cardholders, approving officials, and program
coordinator for each account to track and monitor agency purchases.


                                                   38
no longer complied with the Federal Acquisition Regulation. AFIS Operating
Procedure – 0037, “Supplies and Services,” August 14, 1995, provides guidance to the
AFIS components. It states that the AFIS Director of Resource Management controls the
ordering and receiving of goods and services at AFIS Headquarters, but instructed AFIS
components outside the National Capital Region to follow local procurement procedures.
The chief of contracting was responsible for implementation, administration, and
monitoring the AFIS Government purchase cardholder program using the AFIS
Government purchase card hierarchy. The purpose of this hierarchal system is to
maintain a single AFIS Government purchase card structure permitting AFIS managers to
oversee and administer the purchases made using AFIS funds. However, only DMC and
several other AFIS personnel used the AFIS hierarchy. Several other AFIS components
continued to maintain Government purchase card assigned to the hierarchies of other
DoD Components. As a result, the AFIS Program Coordinator was unaware of and could
not monitor the appropriateness of purchases made using Government purchase cards
assigned to the other hierarchies. For example, DINFOS and other individuals at AFIS
Headquarters used Army-managed hierarchies that did not provide the AFIS program
coordinator with visibility over those purchases.

AFIS Operating Procedure – 0037 was significantly outdated and still established a single
purchase limit on Government purchase cards of $2,500, stating that AFIS would deny
any purchases in excess of the limit. The Defense Federal Acquisition Regulation,
subpart 213.270, “Use of the Government-wide Commercial Purchase Card,” permits the
use of the Government purchase card for purchasing or paying for purchases valued at or
below the micro-purchase threshold. As of September 28, 2006, the micro-purchase
threshold was $3,000, with an exception to place orders or pay invoices on existing
contracts not to exceed $25,000. In addition, Federal Acquisition Regulation 13.301,
“Government-wide Commercial Purchase Card,” states that agency procedures should
not limit the use of the Government-wide commercial purchase card to micro-purchases
and should encourage contracting officers to use the cards in greater dollar amounts to
place orders and to pay for purchases against contracts. Based on our review of
Government purchase card transactions made from October 2006 through
December 2007, we determined that AFIS cardholders correctly followed the Defense
Federal Acquisition Regulation and were no longer following AFIS Operating
Procedure – 0037. DMA should establish a new Government purchase card program
hierarchy for the new organization and update the guidance on requirements for using the
cards, including specific limits for purchases and payments on existing contracts. DMA
should also assign a program coordinator and realign all subsumed AFIS component and
Military Service purchase cards users to a new DMA hierarchy.

Contracting Office. AFIS did not have an entity-wide contracting office to oversee all
contracting activities. The Federal Acquisition Regulation, subpart 1.603, “Selection,
Appointment, and Termination of Appointment,” states that the agency head may
establish contracting activities and delegate authority to manage the contracting functions
to heads of such contracting activities. Because AFIS did not have contract authority,




                                            39
AFIS selected the Defense Logistics Agency to serve as its contracting authority.10 The
Defense Logistics Agency provided the AFIS Contracting Office with authority to
contract for AFIS and issued contract warrants permitting AFIS contracting personnel to
issue contracts. The Defense Logistics Agency provided oversight of the program. The
AFIS Chief of Contracting position description stated that she was responsible for all
DoD contracting transactions entered into supporting AFIS and its components.
However, the AFIS Chief of Contracting was not aware of all contracting actions ongoing
to support the AFIS mission because AFIS components also used other contracting
activities, such as the Army Contracting Center of Excellence and the Defense
Information Systems Agency, without always informing the chief of contracting of these
actions. She also had limited oversight over the Stars and Stripes contracting process,
which maintained a separate contracting office for awarding nonappropriated fund
contracts. Defense Logistics Acquisition Directive, part 1, “Federal Acquisition
Regulation System,” section 1.602-90, “Nonappropriated Funds,” states that an
appropriated fund contracting officer may act in an advisory capacity on nonappropriated
fund contracts. To ensure adequate oversight over AFIS contracting activities and
promote efficiency, the AFIS Director should have ensured the management of all AFIS
contracting actions by the AFIS contracting office. The Director should also have
ensured that the AFIS contracting office provided oversight to the Stars and Stripes
nonappropriated contracting offices activities.

In March 2007, the Defense Logistics Agency reviewed the AFIS contracting procedures
as part of a periodic oversight as the contracting authority to review and ensure the
operational efficiency and integrity of contracting operations and verify that the
contracting officers followed statutory requirements. Although the Defense Logistics
Agency noted that AFIS contracting personnel were doing an outstanding job of
supporting their customers and implementing a reorganization that would increase
operational effectiveness and efficiency, it identified 20 weaknesses in AFIS contracting
practices. The Defense Logistics Agency determined that AFIS needed to strengthen
management and oversight of the Government purchase card program to ensure
compliance with applicable acquisition regulations. AFIS provided corrective actions to
the Defense Logistics Agency for most of the recommendations but did not respond to
the need for additional management and oversight of the Government purchase card
program. The DMA Director should appoint an individual to develop and control
entity-wide acquisition practices and oversee DMA purchasing requirements, including
the use of Government purchase cards. The DMA Director should also rescind AFIS
Operating Procedure – 0037 and establish new DMA guidance for contracting practices
and the use of Government purchase cards.




10
  The Defense Federal Acquisition Regulation Supplement lists agencies granted authority for acquisition
functions according to agency charters. Because DoD Directive 5122.10 did not provide AFIS with
contracting authority, AFIS signed a Memorandum of Understanding with Defense Logistics Support
Command on November 9, 1999, establishing the Defense Logistics Support Command as the Head of the
Contracting Activity for the AFIS contracting office. Defense Logistics Support Command is a subordinate
command of the Defense Logistics Agency.


                                                  40
Personal Property Acquisition Process
AFIS did not properly manage its acquisition of personal property and did not efficiently
use about $940,000 in funds to purchase the immediate needs of AFIS and its
components. In addition, purchases made by AFIS components may have violated
Federal appropriation laws, including the Purpose Statute (31 U.S.C. 1301) and Bona
Fide Needs Rule (31 U.S.C. 1502[a]). The Federal Acquisition Regulation requires that
AFIS managers perform acquisition planning and conduct market research for all
acquisitions. The purpose of this planning is to ensure that the Government meets its
needs in the most effective, economical, and timely manner and that managers document
a bona fide need for purchases made. During the physical inventories we conducted in
December 2007, we discovered significant quantities of personal property stored at AFIS
Headquarters and off-site facilities that AFIS components had purchased and placed in
storage for extended periods. We obtained and reviewed the contracts and supporting
documentation for these purchases to determine whether AFIS had documented the need
for acquiring the items. AFIS purchased these items using Defense Procurement and
Defense Operation and Maintenance funds. In the three instances that follow, neither
AFIS managers nor contracting officials could provide us documentation showing that
they had conducted adequate acquisition planning to determine that a requirement existed
in the fiscal year in which they contracted for the purchased items. As a result, AFIS
may have used its funding to purchase unneeded or untimely-acquired personal property,
while other more immediately required personal property went unfunded.

AFIS Laptop Computer Purchase. AFIS Headquarters purchased laptop computers
and other computer equipment using its allocation of the FY 2006 Defense Procurement
funds. AFIS personnel claimed that they made the procurements as part of normal life
cycle replacement of older equipment. The following details relate to two AFIS
procurements of 215 laptop computers.

       •   On March 8, 2007, AFIS issued a Military Interdepartmental Purchase
           Request providing $369,804 to the Defense Information Systems Agency to
           purchase Dell laptop computers and monitors. According to the remarks on
           the Military Interdepartmental Purchase Request, AFIS purchased the
           computer equipment for the AFIS Public Demilitarization Zone Network
           project to meet the increasing demands for delivering multimedia content to
           the DoD community and the public. On April 12, 2007, the Defense
           Information Systems Agency purchased 185 Dell laptop computers and
           75 monitors totaling $304,500. AFIS received and accepted the items on
           June 7, 2007.

       •   On March 9, 2007, AFIS also issued a Military Interdepartmental Purchase
           Request to the Defense Information Systems Agency for $74,347 to purchase
           30 laptop computers for the applications team and AFRTS. AFIS received the
           30 laptop computers on April 11, 2007.




                                           41
We found 151 (valued at about $225,000) of the 215 laptop computers stored in a room at
AFIS Headquarters, Alexandria, Virginia. As of June 4, 2008, AFIS had distributed
170 laptop computers to AFIS offices, but lost two of the laptop computers. Figure 3
shows the stored laptop computers.




            Figure 3. Laptop Computers Purchased and Kept in Storage

Although AFIS personnel justified these purchases as a life cycle replacement for its
older laptop computers, they did not perform sufficient acquisition planning for the
hardware and software needed to accomplish the life cycle replacement. AFIS
information technology personnel stated that AFIS managers continually changed their
software requirements for the new laptop computers, which delayed issuing the newer
laptop computers. This indicates that AFIS had not defined its software requirements for
the replacement laptop computers before purchasing them. These requirements should
have been part of the acquisition planning process for this life cycle replacement. AFIS
information technology personnel informed us that they did not procure and install the
software for these laptop computers until January 2008, and a majority of the laptop
computers remained in storage as of June 4, 2008. AFIS Headquarters personnel also
could not provide us with any documentation granting them authority to maintain an
inventory of laptop computers for future use. As a result, AFIS may not have met the
necessary expense rule for using FY 2006 Defense Procurement funds. Based on the
uncertainty of the user software requirements, a more prudent acquisition plan should
have finalized the life cycle replacement requirements before contracting for new laptop
computers. A review of budget documentation showed that AFIS could have better used
approximately $68,000 of its FY 2006 Defense Procurement funds to fulfill the need for
laptop computers at DMC and Stars and Stripes. Because of poor acquisition planning,
AFIS has allowed 151 laptop computers to go unused and permitted at least 7 months of
the 2-year and 3-year warranties to expire without benefit to the Government.

Pentagon Broadcast Studio Purchase. AFIS did not justify and document the need for
using FY 2005 Defense Procurement funds to construct a Pentagon live broadcast studio
or perform adequate acquisition planning for the studio. As a result, purchasing Pentagon


                                           42
studio may have violated the Purpose Statute contained in 31 U.S.C. 1301. In addition,
AFIS personnel inappropriately purchased additional equipment that may not have been
required.

        Justification of Original Purchase. In May 2006, AFIS issued a contract for
$639,761 with Innovative Technologies, Inc. to build a broadcast studio in the Pentagon.
AFIS Headquarters personnel were not able to provide us with support justifying a need
to construct a studio in the Pentagon. They also could not provide us with documentation
showing that its purchase of a new Pentagon studio fulfilled one of the specified
requirements that it included in the AFIS FY 2005 Defense Procurement Budget Estimate
Submission. Further, they did not provide documentation supporting that AFIS had
accomplished sufficient acquisition planning to support the use of FY 2005 Defense
Procurement funds to issue this contract. We concluded that AFIS may have violated the
Purpose Statute by purchasing equipment that did not meet budgeted requirements for the
use of FY 2005 Defense Procurement funds.

         Acquisition Planning. AFIS did not sufficiently plan for the acquisition of a
Pentagon studio before issuing a contract to design, build, and install the equipment. The
AFIS contract included line items for the system design; system integration; and the
installation, testing, and training for the studio. Because the planned location of the
studio was undergoing renovation as part of the WHS Pentagon renovation project, AFIS
agreed to operate the studio in a temporary location in the Pentagon until spring 2009.
WHS, AFIS, and the contractor conducted site surveys and planning meetings to review
the size and layout of the temporary location in August 2006. By November 2006, the
contractor had designed and purchased the equipment for the new studio, but could not
install it because the temporary location was not ready. In March 2007, before providing
WHS funds for site preparation, AFIS requested an estimate of how long the temporary
location would be available. WHS informed AFIS that the temporary location would
only be available for 19 months. As a result, in June 2007, AFIS decided not to build the
studio at that location, but continued to plan for the installation of the new studio in the
permanent location. AFIS permitted Innovative Technologies, Inc. to continue
constructing the studio at its corporate facility. In July 2007, AFIS requested that the
contractor stop work, crate up the equipment, and ship it to Fort Belvoir, Virginia, where
we observed the equipment in storage in December 2007. Starting in July 2007, WHS
worked with AFIS to develop the construction requirements for the permanent location.
WHS did not finalize the permanent location requirements until February 2008, when it
sent them to the Pentagon renovation company to obtain a cost estimate. The
construction company required an additional $569,093 to prepare the permanent location
for the studio. In March 2008, AFIS personnel cancelled the studio project, stating that
AFRTS decided not to construct the Pentagon studio because the Army and Air Force
had recently finished constructing similar broadcast studios in the Pentagon.

        AFIS did not perform sufficient acquisition planning for the Pentagon studio.
AFIS should have coordinated with WHS before making the decision to acquire the
studio to determine how the Pentagon renovation would affect the planned Pentagon
studio. AFIS should have planned and factored in the need and cost associated with



                                            43
operating from a temporary location during the acquisition decision. The lack of final
permanent location requirements before February 2008 and the knowledge available that
the Army and Air Force had similar construction projects planned further illustrates that
AFIS did not sufficiently plan for the acquisition of the Pentagon studio. Proper
acquisition planning could have saved the $639,761 AFIS spent for a studio that it will
never construct.

        Purchase of Additional Equipment. AFIS personnel may have created an
unauthorized commitment by purchasing additional equipment without accomplishing the
needed requirements determination and contracting actions. In July 2007, after AFIS
requested the contractor to stop work on the contract, Innovative Technologies, Inc.
submitted invoices for the entire contract amount without first executing all of the
contract requirements for training, testing, and installation. AFIS did not approve the
invoice submitted for the unexecuted requirements. Innovative Technologies, Inc.
subsequently canceled the invoice and resubmitted an invoice in September 2007 for the
remaining system design and installation costs, leaving a balance of $71,770 on the
contract. AFIS used the remaining $71,770 on the contract to purchase additional
equipment because Innovative Technologies, Inc. was unable to conduct testing and
training without first installing the equipment at the Pentagon. The AFRTS Chief
Engineer developed a list of additional equipment to purchase with the unused contract
funding. This equipment included camcorders, computer servers, and batteries. In
September 2007, Innovative Technologies, Inc. used the list to develop a quote for an
additional $71,770 in equipment. An individual within the AFIS contracting office, who
did not have appropriate contract authority, approved the purchase of additional
equipment in an e-mail to Innovative Technologies, Inc. In December 2007, Innovative
Technologies, Inc. submitted an invoice for the additional equipment it delivered in
November 2007. AFRTS accepted the equipment and authorized the payment of the
invoice without first ensuring a valid contract modification existed. Based on the AFRTS
acceptance, the Defense Finance and Accounting Service paid the invoice using the
remaining available unliquidated funds on the contract. AFIS contracting personnel
modified the contract on February 25, 2008, after we brought the issue to their attention.

         AFIS purchased the $71,770 in additional equipment without first ensuring that
AFIS had finalized its plans for constructing the studio at its planned permanent location
and that installation at the permanent location required the additional equipment. The
current contracting officer stated that ratification was not required because she believed
that her predecessor had properly authorized the change. AFIS personnel could not
provide us documentation showing that the previous contracting officer had authorized
the purchase of this equipment. Documentation provided to us indicated that AFIS
personnel may not actually have required this equipment but simply attempted to spend
the remaining funds available on that contract before the funding expired. If AFIS can
justify the equipment fulfilled another valid requirement at the time of obligation, then
AFIS needs to perform the necessary accounting and contractual actions for ratifying the
requirement and properly fund the equipment. If the purchase was not a properly
incurred expense, AFIS needs to determine the requirement for collection of funds and
disciplinary actions.



                                            44
Purchase of Equipment for a Hawaii Bureau. AFRTS used $74,839 in FY 2006
Defense Operation and Maintenance funds to purchase 278 equipment items it stored in a
warehouse at Gaithersburg, Maryland, since 2006. According to the AFRTS Chief
Engineer, AFRTS purchased this equipment for a “Future Hawaii Bureau” at Hickam Air
Force Base or Pearl Harbor, Hawaii. However, AFRTS could not provide any
documentation that established a valid requirement or a firm acquisition plan for building
a Hawaii bureau that would have required them to use FY 2006 funds to purchase the
equipment. Most of this equipment is commercial off-the-shelf items such as power
supplies, microphones, and video equipment that do not require long lead times to
procure. AFRTS potentially violated 31 U.S.C. 1301 by purchasing equipment without a
valid requirement and 31 U.S.C. 1502(a) which requires agencies to use funds only to
meet the bona fide needs of the fiscal year for which Congress appropriated the funds.

Conclusion
AFIS did not establish an effective acquisition process to ensure purchases fulfilled
organizational requirements and complied with laws and regulations. Instead, AFIS
allowed components to conduct separate acquisition, contracting, and Government
purchase card programs without the proper oversight and centralized management. As a
result, AFIS purchasing practices may have violated the 31 U.S.C. 1301 and AFIS may
have misspent appropriated funding. AFIS management should budget for, request, and
appropriately obligate the funds necessary to meet the bona fide needs of AFIS and its
components. Proper acquisition planning and more effective contracting could have
alleviated the concerns addressed in this finding. In addition, AFIS personnel could have
made better use of the $940,000 they spent on the inadequately planned acquisitions of
151 laptop computers, a Pentagon Studio, and the equipment for the future Hawaii
bureau.

To prevent future contracting issues, the ASD(PA) and the Director, Defense Logistics
Agency need to assess the practices used by AFIS contracting personnel to determine
whether they are ensuring due diligence before approving and contracting for goods and
services. Upon assessment, the ASD(PA) should improve controls over its purchasing
and contracting practices, train contracting personnel, and take necessary ratification and
disciplinary actions. The Director, Defense Logistics Agency should consider limiting or
suspending the AFIS contracting warrants pending the results of the assessment and
agency corrective actions. Further, the USD(C)/CFO, in conjunction with the ASD(PA),
should perform an assessment and determine whether a formal investigation should occur
into the three questionable equipment purchases to determine if they violated the Purpose
Statute and Bona Fide Needs Rule. Specifically, they should determine whether:

    •   the purchase of the laptop computers and Pentagon live broadcast studio
        equipment fulfilled a bona fide need of the FY 2006 Defense Procurement funds;
    •   the purchase of the equipment for the Pentagon live studio fulfilled valid
        requirements of the FY 2005 Defense Procurement funds;




                                            45
    •   obligating the Government for $71,770 in additional equipment for the Pentagon
        studio represented a necessary expense and whether contracting actions were
        legitimate;
    •   whether the purchase of Hawaii Bureau equipment represented a necessary
        expense and fulfilled a bona fide need.

Based on the results of the investigations, they should take appropriate disciplinary
actions. In addition, the ASD(PA), in conjunction with the DMA Director, should
develop an acquisition process that provides adequate oversight and controls over DMA
acquisition planning and purchases.

Recommendations, Client Comments, and Our
Response
Revised Recommendation
As a result of comments from the Acting Deputy Chief Financial Officer, we revised
draft Recommendation C.1. to clarify the intent of the recommendation.

C.1. We recommend that the Assistant Secretary of Defense (Public Affairs)
perform an assessment and determine whether a formal investigation into the four
questionable equipment purchases is warranted. If it is determined that the
purchases were unnecessary or a potential violation may have occurred, perform a
formal investigation and take appropriate collection and disciplinary actions.
Coordinate the results of the assessment and investigation with the Office of the
Secretary of Defense and other interested parties. Specifically,

      a. Review the purchase of 151 laptop computers to determine whether the
expense fulfilled a valid requirement of the FY 2006 Defense Procurement
appropriation.

      b. Review the purchase of the equipment for the Pentagon studio to
determine whether the purchases fulfilled valid requirements of the FY 2005
Defense Procurement appropriation.

        c. Determine whether the purchase of $71,770 in additional equipment for
the Pentagon studio represented a necessary expense and whether follow on
contracting actions were legitimate. If the equipment fulfilled a valid requirement
for the American Forces Information Service at the time of obligation, then ensure
that the American Forces Information Service performed the necessary accounting
and contract actions to ratify the commitment and properly fund the equipment.

       d. Review the American Forces Radio and Television Service purchase of
$74,839 in equipment for the Hawaii Bureau and determine whether the purchase
violated section 1301, title 31, United States Code and section 1502(a), title 31,
United States Code.



                                          46
USD(C)/CFO Comments
The Acting Deputy Chief Financial Officer agreed and stated that he agrees that an
assessment into the questionable equipment purchases must be performed to determine
whether the purchases warrant a formal investigation. However, the Acting Deputy Chief
Financial Officer stated that the ASD(PA) must work in coordination with WHS to
complete the assessment.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated his office would work with the USD(C)/CFO to
perform an assessment and determine whether a formal investigation is required.

Our Response
The USD(C)/CFO and ASD(PA) comments are responsive. However, we did not agree
that we should redirect the recommendation to WHS. The DoD Financial Management
Regulation, volume 14, “Administrative Control of Funds and Antideficiency Act
Violations,” chapter 1, “Administrative Controls of Appropriations,” October 2002,
assigns the Office of the Deputy Comptroller (Program/Budget) administrative control
over Defense-wide funds. The Office of the USD(C)/CFO allotted Defense funding to
AFIS, not WHS. Therefore, we see no involvement for WHS in this recommendation.
After subsequent discussions with representatives of the Office of the USD(C)/CFO, we
determined that the ASD(PA) should coordinate the results of the assessment and
investigation with the Office of the Secretary of Defense because it has jurisdiction over
AFIS. Therefore, we did not redirect Recommendation C.1. to WHS. Instead, we
revised the recommendation to clarify its intent. Once completed, the ASD(PA) should
coordinate the results of the assessment and investigation with the Office of the Secretary
of Defense and other interested parties, including the Office of the USD(C)/CFO and the
Office of General Counsel, to obtain concurrence as to whether collection and
disciplinary actions are required.

We request that the ASD(PA) provide additional comments on the revised
recommendation in response to the final report. The additional comments should address
coordinating the results with the Office of the Secretary of Defense and other interested
parties.

C.2. We recommend that the Assistant Secretary of Defense (Public Affairs), in
conjunction with the Director, Defense Logistics Agency, review the purchasing
authority and contracting practices at the American Forces Information Service to
ensure adequate controls exist to promote efficient and effective contracting actions
that are legally compliant. The Director, Defense Logistics Agency should consider
limiting or rescinding the American Forces Information Service contracting
warrants based on the results of the review and implementation of any corrective
actions.




                                            47
ASD(PA) Comments
The Acting ASD(PA) concurred and stated that, in coordination with DLA, they agree to
limit AFIS contracting warrants through increased oversight by DLA and DMA.

DLA Comments
The Director of Acquisition Management, DLA agreed and stated that, based on the
results of its recent review, DLA is limiting the contracting officers’ authority until AFIS
can implement corrective actions. She also stated that DLA will work closely with DMA
to ensure that DMA awards contracts using efficient and effective methods and that the
resulting agreements are legally compliant.

Our Response
The ASD(PA) and DLA comments are responsive. No further comments are required.

C.3. We recommend that the Assistant Secretary of Defense (Public Affairs)
improve controls over purchasing and contracting practices, train contracting
personnel on contracting requirements, and take necessary disciplinary actions for
individuals involved in inappropriate contracting actions.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that he appointed the DMA Director of
Acquisition and Procurement on July 20, 2008. The individual will serve as the DMA
Chief of Contracting and has responsibility for establishing and managing the DMA
world-wide procurement and acquisition program and its associated workforce. The new
Director of Acquisition and Procurement also assumed full authority for the direction and
oversight of all AFIS procurement and acquisition functions pending the consolidation of
that organization into DMA in FY 2009.

Our Response
The ASD(PA) comments are partially responsive, but meet the intent of the
recommendation. The DMA Director of Acquisition and Procurement will be
responsible for improving controls and addressing personnel issues. No further
comments are required.

C.4. We recommend that the Assistant Secretary of Defense (Public Affairs), in
conjunction with the Director, Defense Media Activity, establish adequate oversight
and control over Defense Media Activity acquisition planning and purchases.
Specifically:

       a. Establish a Defense Media Activity contracting office to oversee
entity-wide acquisition practices and purchasing requirements.

       b. Publish guidance and implement standard operating procedures for
acquiring goods and services with Government purchase cards and contracts.



                                            48
      c. Rescind American Forces Information Service’s Operating
Procedure - 0037, “Supplies and Services.”

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that the new Director of Acquisition and
Procurement has assumed responsibility for establishing and managing the DMA
world-wide procurement and acquisition program and its associated workforce. The new
Director will develop and control entity-wide acquisition practices and oversee the DMA
purchasing requirements, establish a Government purchase card program hierarchy, and
rescind AFIS Operating Procedure – 0037. The Director will also develop a DMA
Operating Instruction detailing contracting policies and procedures for DMA Deputy
Director/Chief of Staff approval and perform a continuous and comprehensive
assessment of past acquisition policies and practices. She will update DMA policies and
practices as needed.

Our Response
The ASD(PA) comments are responsive. No further comments are required.




                                          49
50
Finding D. Managers’ Internal Control
Program
The ASD(PA) did not appropriately establish a Managers’ Internal Control (MIC)
Program for the OASD(PA) or ensure that the AFIS MIC Program was effective and
fully complied with the Federal Managers’ Financial Integrity Act of 1982. As a result,
neither OASD(PA) nor AFIS had the information needed to fairly assess the effectiveness
of internal controls and identify and correct deficiencies in the internal control
environment. The ASD(PA) should appoint someone from the OASD(PA) to serve as
the OASD(PA) MIC Program Coordinator to ensure compliance with internal control
policies and provide input to the OSD Annual Statement of Assurance. The DMA
Director should:

     •   establish a DMA regulation that defines the MIC Program roles and
         responsibilities and rescind outdated AFIS policies;
     •   appoint a MIC Program Coordinator to oversee the transition to and
         administration of the DMA MIC Program;
     •   segment the organization into logical assessable units that ensure all aspects of the
         DMA mission are contained in at least one assessable unit;11
     •   assign assessable unit managers for each assessable unit and maintain
         documentation to support their internal control responsibilities;
     •   provide MIC Program training to the MIC Program Coordinator and assessable
         unit managers; and
     •   establish a senior management council to assess and monitor the MIC Program.

In addition, the USD(C)/CFO should update DoD Instruction 5010.40, “Managers’
Internal Control (MIC) Program Procedures,” January 4, 2006, to require DoD
Components to appoint a MIC Program Coordinator.

Managers’ Internal Control Guidance
The Federal Managers’ Financial Integrity Act of 1982 requires an entity head to
establish an effective internal control system, assess internal control effectiveness, and
report assurance annually. DoD Instruction 5010.40 provides DoD entities guidance for
complying with the Federal Managers’ Financial Integrity Act of 1982 and Office of
Management and Budget Circular No. A-123. The circular encourages agency heads to
establish and maintain internal control to ensure effective and efficient operations,
reliable financial reporting, and compliance with applicable laws and regulations. An
effective MIC Program requires the reporting entity to:




11
  An assessable unit is an organizational subdivision of the total internal control organization that requires
compliance with the MIC Program for a DoD Component.



                                                      51
   •   appoint a MIC Program Coordinator to plan, direct, and implement the program;
   •   assign assessable units;
   •   appoint assessable unit managers to perform internal control assessments and take
       corrective actions; and
   •   establish a process for identifying and reporting internal control deficiencies.

To establish proper oversight, the agency head needs to determine how to assess and
monitor the implementation of the MIC Program. Office of Management and Budget
Circular No. A-123 encourages the use of a senior management council as a mechanism
to help provide oversight and ensure commitment for establishing internal control. DoD
Instruction 5010.40 also encourages the use of senior management councils as a forum
for assessing and monitoring MIC Program efforts.

The OASD(PA) Managers’ Internal Control Program
The ASD(PA) did not appropriately establish an OASD(PA) MIC Program. The
OASD(PA), an OSD-level organization, had two programs: one for itself and another for
AFIS. As part of the OSD MIC Program, the OASD(PA) was an OSD assessable unit
that reported the results of its assessments through the DoD Director of Administration
and Management. The ASD(PA), as the assessable unit manager, should have appointed
an employee in his office to serve as the OASD(PA) MIC Program Coordinator. Instead,
the ASD(PA) assigned the same individual who served as the AFIS MIC Program
Coordinator to implement and execute the OASD(PA) program. As an AFIS employee
not located within the OASD(PA), this individual did not possess the knowledge of the
internal control environment needed to assess the OASD(PA) mission and organizational
structure. The OASD(PA) MIC Program Coordinator requires this knowledge to
appropriately conduct the required risk assessments, identify and test internal controls,
and report through the annual assurance process any material weaknesses found to the
DoD Director of Administration and Management for consolidation with the remainder
of the OSD assessment. For example, the list of FY 2007 OASD(PA) assessable areas
developed by the coordinator did not include an assessment of the DASD for Joint
Communication, Advance Office, or Communications Outreach Office. However, the
list required an assessment of the Directorate of Public Affairs Training and Education,
which did not exist as of the end of FY 2007. Therefore, the coordinator could only
provide limited assurance of the appropriate assessment of all aspects of the OASD(PA)
mission. The ASD(PA) should have identified and appointed an individual from
OASD(PA), with sufficient knowledge of the organization, to serve as its MIC Program
Coordinator to ensure the office conducted appropriate internal control testing and
assessments.

The AFIS Managers’ Internal Control Program
The AFIS MIC Program was outdated and no longer fully complied with the Federal
Managers’ Financial Integrity Act of 1982. AFIS established guidelines, policies, and
procedures for its MIC Program in Operating Procedure – 0020, “AFIS Management
Control Program (MCP),” May 1, 2000. The program covered AFIS Headquarters, AFIS
field activities, and the Stars and Stripes organization. However, AFIS had not updated



                                           52
Operating Procedures – 0020 when DoD revised DoD Instruction 5010.40 and rescinded
DoD Directive 5010.38, “Management Control (MC) Program Procedures,” August 26,
1996. AFIS Operating Procedure – 0020 assigned the Deputy Director and MIC Program
Coordinator primary responsibility for the AFIS program. The MIC Program
Coordinator responsibilities included:

   •   planning, implementing, and monitoring the overall program;
   •   identifying, evaluating, and reporting material weaknesses to the AFIS Deputy
       Director;
   •   conducting periodic assessable unit reviews;
   •   designating and ensuring the training of assessable unit managers; and
   •   developing the AFIS Annual Statement of Assurance.

AFIS Operating Procedure – 0020 assigned day-to-day program responsibilities to the
component directors. The component directors’ responsibilities included:

   •   assigning, in writing, assessable unit managers to establish and document
       controls, perform vulnerability assessments and management control reviews, and
       report results to the administrator;
   •   ensuring all assessable unit managers had MIC responsibilities identified in their
       performance standards and job descriptions;
   •   ensuring corrective actions were taken; and
   •   preparing and submitting the component Annual Statement of Assurance to the
       MIC Program Coordinator.

Although AFIS had a MIC Program, AFIS components inconsistently and incorrectly
implemented the Operating Procedure – 0020 requirements. In addition, AFIS Operating
Procedure – 0020 did not reference or incorporate all the responsibilities for the risk
assessments, management control plans, and command assistance visits that were detailed
in an AFIS internal control handbook. AFIS managers did not provide sufficient
oversight and direction to ensure components consistently implemented an entity-wide
MIC Program that complied with the Federal Managers’ Financial Integrity Act of 1982.

Managers’ Internal Control Program Coordinator
The FY 2007 DoD MIC training presentation, “CHECK IT Campaign and Overall
Managers’ Internal Control Program Update,” shows that each management control
program should have an individual to manage the MIC program. The coordinator
provides oversight of program implementation and serves as the point of contact for all
management control matters.

DoD Instruction 5010.40. DoD Instruction 5010.40 does not require the appointment of
an agency program coordinator. Before its rescission on April 3, 2006, DoD
Directive 5010.38 required agency heads to appoint a senior management official to be
responsible for designing, establishing, and implementing the management control
program. The agency MIC Program Coordinator served as the senior management
official. However, DoD did not include this requirement when it updated DoD


                                           53
Instruction 5010.40 on January 4, 2006. The DoD MIC Program Manager was unsure
why this requirement was not included in the new DoD Instruction 5010.40. The
USD(C)/CFO should update DoD Instruction 5010.40 to include this requirement. This
would help ensure that an agency head, such as the AFIS Director, provides necessary
authority to its MIC Program Coordinator.

AFIS MIC Program Coordinator. The AFIS MIC Program Coordinator did not
sufficiently monitor the AFIS internal control assessment process. The AFIS MIC
Program Coordinator, who had been working in that capacity since October 11, 2006,
was not formally appointed as the FY 2007 AFIS MIC Program Coordinator until we
brought this to the attention of the acting OASD(PA) Director of Administration and
Management. The AFIS MIC Program Coordinator relied on procedures outlined in
AFIS Operating Procedure – 0062, “AFIS Command Assistance Program (CAP),”
March 19, 2000, which implements command assistance visits, to monitor component
compliance with the MIC Program. Although the MIC Program Coordinator conducted
visits to the various components, the evaluations did not identify areas of concern or
internal control weaknesses such as the resource management and personal property
deficiencies discussed in findings A and B. During command assistance visits, the MIC
Program Coordinator asked questions from a checklist to assess compliance without
verifying the accuracy of the responses. This process did not provide adequate
monitoring of the MIC Program. The MIC Program Coordinator should have designed
tests to evaluate the controls implemented at the components. Several AFIS managers
expressed concerns that the individual assigned as AFIS MIC Program Coordinator
would not be able to aggressively seek out and report problem areas and did not have
sufficient authority to affect entity-wide change. Because the future DMA MIC Program
Coordinator will have a substantially larger program to monitor, the need for
management oversight and monitoring is even greater. The DMA Director should
appoint an individual to coordinate its MIC Program. In addition, based on the size and
complexity of the new organization as well as the need to address the issues we identified
in this report, we believe DMA needs a senior management council to assess and monitor
MIC Program efforts.

Designating Assessable Units
AFIS did not consistently designate assessable units to ensure that it evaluated
controls over the entire organization’s missions, functions, and programs. DoD
Instruction 5010.40 requires DoD Components to segment all organizational parts
in its chains of command into assessable units so that the units as a whole assess the
entire DoD Component. AFIS Operating Procedure – 0020 allowed the AFIS components
to identify and designate assessable units for their portion of the organization. However,
the MIC Program Coordinator did not ensure that AFIS components assigned similar
assessable units and had limited assurance that AFIS assessed its entire organization.
The list of FY 2007 assessable units showed that the AFIS components assigned units
inconsistently. For example,

    •   the Directorate of Administration and Management assigned its subordinate
        offices as assessable units;


                                           54
    •   DINFOS assigned its functions and tasks (such as copiers, telephones, and safety)
        as assessable units; and
    •   DMC assigned a combination of its offices and functions as assessable units.

In addition, the list showed Stars and Stripes as a DMC assessable unit, instead of a
separate AFIS component with multiple assessable units. The MIC Program Coordinator
and the Deputy Director should have ensured that AFIS assessed all organizational parts.
To ensure AFIS segmented all organizational parts into assessable units, AFIS should
have aligned its assessable units to correlate with its organizational structure. As of
April 16, 2008, the MIC Program Coordinator had not requested that AFIS components
revise assessable units to ensure consistency and proper alignment. As the DMA
subsumes AFIS and the other Military Department media activities, the DMA Director
should align assessable units to evaluate the controls of the entire organization.

Assigning Assessable Units Managers
AFIS failed to appoint the appropriate individuals as assessable unit managers and the
MIC Program Coordinator did not maintain documentation supporting their appointment,
performance accountability, and training. DoD Instruction 5010.40 states that assessable
unit managers must be the heads of organizational segments, and they must have a
critical element in their performance appraisal plan that addresses MIC Program
responsibilities. It also requires the head of a DoD Component to ensure that the
assessable unit managers receive training on planning, directing, and implementing the
program. AFIS Operating Procedure – 0020 assigned the MIC Program Coordinator
responsibility to designate and train the assessable unit managers. However, AFIS was
able to provide appointment letters for only 56 of the 93 assessable unit managers. When
we reviewed the 56 appointment letters, we identified the following problems.

   •    Appointment letters were outdated for 16 assessable unit managers.
   •    Six managers did not have appointment letters created until after the date of our
        request.
   •    AFIS Headquarters appointed an individual as an assessable unit manager
        2 months after he had left the organization.
   •    A majority of the individuals appointed were not the head of their assessable unit.

The MIC Program Coordinator also could not provide documentation showing that the
AFIS assessable unit managers had MIC Program responsibilities included in their
performance appraisal plans or had completed the required training. Many of the AFIS
components listed the training accomplished by assessable unit managers in their annual
statements of assurance. However, without adequate documentation, the MIC Program
Coordinator had limited assurance that assigned individuals were qualified to serve as
assessable unit managers. In the future, the DMA Director should require that the MIC
Program Coordinator verify and document that assessable unit managers are properly
appointed, trained, and have a critical element in their performance plans addressing
internal control responsibilities.




                                            55
Process for Testing Controls and Identifying Deficiencies
AFIS did not implement an adequate process to test controls and identify deficiencies.
Office of Management and Budget Circular No. A-123 states that agency managers and
employees should identify deficiencies in internal control from the results of their
assessment process and other external evaluations to the next supervisory level. This
allows managers in the chain-of-command to determine the relative significance of each
deficiency. The process culminates with the AFIS Director determining whether the
deficiencies are significant enough to report as material weaknesses in the AFIS Annual
Statement of Assurance. AFIS had developed an internal control handbook that directed
assessable unit managers to assess the risk present in the assessable unit, implement
controls to mitigate the risk, and test the effectiveness of the controls. However,
assessable unit managers did not correctly implement all of the procedures it described.
In addition, AFIS Operating Procedure – 0020 did not reference or provide details for
implementing the guidance in the internal control handbook.

AFIS assessable unit managers performed vulnerability assessments to identify the
assessable unit risk levels, but incorrectly used management control review checklists and
command assistance visits as the only methods of testing assessable unit controls. The
checklists were simply a series of questions, sometimes unrelated to the assessed area.
The assessable unit managers did not have to test controls to answer the questions. Our
review of the checklists also showed that annotated comments on the checklists did not
support the responses given and provided little or no information about the strengths,
weaknesses, recommendations, and followup actions needed. AFIS also incorrectly used
the command assistance visits to replace control testing by assessable unit managers.
AFIS Operating Procedure – 0020 should have provided additional guidance on
implementing and testing controls. The DMA should rescind the operating procedure
and issue DMA guidance detailing the MIC Program.

Developing the Annual Statement of Assurance
AFIS did not have a documented process in place to show how it assessed the
significance of reported deficiencies and determined whether AFIS should report them in
the AFIS Annual Statement of Assurance. DoD Instruction 5010.40 requires the AFIS
Director to submit an annual statement of assurance based on a general assessment of the
effectiveness of AFIS internal controls. The annual statement of assurance should
identify material weaknesses and the plans to correct them. In addition, AFIS Operating
Procedure – 0020 requires component directors to submit annual statements of assurance
for their areas of responsibility to the MIC Program Coordinator who then develops the
annual statement of assurance for the AFIS Director. In both FY 2006 and FY 2007, the
AFIS component directors reported numerous deficiencies to the MIC Program
Coordinator in their annual statements of assurance. However, the FY 2006 and FY 2007
AFIS Annual Statements of Assurance did not report any material weaknesses, but
included over 30 accomplishments each year. We concluded that the MIC Program
Coordinator did not adequately assess the significance of reported deficiencies so the
AFIS Director could make an appropriate determination as to whether they were material
and required reporting to a higher level. The following are examples of significant
deficiencies that we believe AFIS should have reported to a higher level.


                                           56
   •   DMC reported that the AFIS financial systems used to formulate and account for
       financial transactions were inadequate and needed replacement with a new
       financial management system. Because all AFIS components used the same
       financial systems, the MIC Program Coordinator should have identified this as an
       entity-wide deficiency and considered it for reporting as a material weakness.
   •   DMC reported that property accountability officers were not reconciling
       inventories to DPAS. We identified similar problems at AFIS Headquarters.

Our audit also identified deficiencies in the AFIS budget and personnel management
areas (finding A), implementation and management of the AFIS personal property
program (finding B), and AFIS purchasing practices (finding C) that AFIS components
should have reported to the MIC Program Coordinator and considered for reporting to a
higher level.

AFIS Operating Procedure – 0020 also requires the MIC Program Coordinator to
incorporate all DoD Inspector General (IG) findings when reporting on internal control.
The FY 2007 AFIS Annual Statement of Assurance reported that there were no special
concerns addressed in DoD IG reports regarding management controls, process, program
needs, or problems. However, DoD IG Report No. D-2006-117, “American Forces
Network Radio Programming Decisions,” September 27, 2006, identified control
weaknesses in the review procedures and documentation that support AFRTS radio
programming decisions. As of May 15, 2008, AFIS had not updated its regulation to
address the recommended changes that the DASD for Internal Communications agreed to
make. DMA needs to develop and document a process for consolidating the deficiencies
identified in the internal and external assessments of the AFIS components and
determining the materiality of each deficiency. AFIS should report all material
weaknesses in the annual statement of assurance.

Client Actions
During FY 2008, the new OASD(PA) Director of Administration and Management
recognized the need to maintain a MIC Program apart from AFIS. In May 2008, the
acting ASD(PA) appointed a new OASD(PA) MIC Program Coordinator. However, the
appointed individual was in an AFIS personnel billet. The ASD(PA) should realign the
OASD(PA) MIC Program Coordinator position from AFIS to the OASD(PA). In
December 2007, the acting ASD(PA) also formally appointed an AFIS MIC Program
Coordinator to conduct the FY 2008 program. In developing the FY 2008 Annual
Statement of Assurance, the MIC Program Coordinator should consider the
recommendations made in this report to ensure proper reporting of significant
deficiencies and material weaknesses. The ASD(PA) will not establish a separate MIC
Program for DMA until FY 2009 when all the personnel, funding, and other resources
budgeted for AFIS and Military Departments’ media operations transfer to DMA. The
DMA Transition Team’s draft concept of operations for DMA as of March 31, 2008,
indicated that the team is considering placing the DMA MIC Program Coordinator in the




                                          57
DMA Inspector General Office. These are all steps in the right direction and
management should consider our recommendations as part of this effort to establish and
implement MIC Programs for OASD(PA) and DMA.

Recommendations, Client Comments, and Our
Response
D.1. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer update DoD Instruction 5010.40 to require each DoD Component
to appoint a program coordinator to be responsible for designing, establishing, and
implementing the component’s Managers’ Internal Control Program.

USD(C)/CFO Comments
The Acting Deputy Chief Financial Officer agreed and stated that by July 2009 his office
would update DoD Instruction 5010.40 to require that each DoD Component appoint a
Program Coordinator to be responsible for designing, establishing, and implementing the
component’s MIC Program.

Our Response
The USD(C)/CFO comments are responsive. No further comments are required.

D.2. We recommend that the Assistant Secretary of Defense (Public Affairs) realign
the Office of the Assistance Secretary of Defense (Public Affairs) Managers’
Internal Control Program Coordinator position from the American Forces
Information Service to the Office of the Assistance Secretary of Defense (Public
Affairs).

ASD(PA) Comments
The Acting ASD(PA) partially agreed and stated that the OASD(PA) needs to establish a
position for the MIC Program Coordinator. However, he stated that OASD(PA) will use
an existing OASD(PA) position for the MIC Program Coordinator rather than transfer a
position from AFIS.

Our Response
The ASD(PA) comments are responsive. The Acting ASD(PA) agreed that OASD(PA)
should have a MIC Program Coordinator, but did not want to transfer a position from
AFIS to OASD(PA). Instead, he preferred to use an existing position available in
OASD(PA) for the MIC Program Coordinator position. This action meets the intent of
the recommendation. No further comments are required.

D.3. We recommend that the Assistant Secretary of Defense (Public Affairs) direct
the Director, Defense Media Activity, to improve compliance with the Federal
Managers’ Financial Integrity Act of 1982 by implementing a Managers’ Internal
Control Program for the Defense Media Activity that incorporates the requirements
of DoD Instruction 5010.40. Specifically:


                                           58
       a. Develop Defense Media Activity guidance that establishes the Managers’
Internal Control Program, and rescind American Forces Information Service
Operating Procedure – 0020.

      b. Appoint an individual, assigned to the Defense Media Activity, to serve as
the Managers’ Internal Control Program Coordinator.

       c. Segment the organization into assessable units to ensure all organizational
parts are contained in at least one assessable unit.

     d. Assign assessable unit managers for each unit and maintain
documentation to support their internal control responsibilities.

       e. Provide training to the Managers’ Internal Control Program Coordinator
and assessable unit managers for planning, directing, and implementing the
Managers’ Internal Control Program.

       f. Review deficiencies identified in internal and external assessments of the
American Forces Information Service and other Defense Media Activity
components, including those in this audit report; determine the status of corrective
actions taken and the significance of each remaining deficiency; and report all
material weaknesses in the annual statement of assurance.

     g. Establish a senior management council to assess and monitor the
Managers’ Internal Control Program.

ASD(PA) Comments
The Acting ASD(PA) agreed and stated that DMA is in the process of establishing a
DMA Office of the Inspector General, which will be part of the Command Group and
will report directly to the DMA Director. The DMA MIC Program Officer will work for
the Office of the Inspector General. The MIC Program Officer will develop a DMA
Operating Instruction to implement the requirements of DoD Instruction 5010.40 by
January 31, 2009, and will segment the organization into assessable units. The MIC
Program Officer will also be responsible for developing and implementing a training
program to provide all assessable unit managers with the necessary tools to plan, direct,
and implement their MIC Program responsibilities.

Our Response
The ASD(PA) comments are partially responsive. The Acting ASD(PA) did not address
the need to review deficiencies identified in internal and external assessments of AFIS
and other DMA components; determine the status of corrective actions taken and the
significance of each remaining deficiency; and report all material weaknesses in the




                                           59
annual statement of assurance. He also did not address the need to establish a senior
management council to assess and monitor the MIC Program or the need to rescind AFIS
Operating Procedure – 0020.

We request that the ASD(PA) provide comments on the final report addressing the need
to take these additional actions.




                                         60
Appendix A. Scope and Methodology
We conducted this performance audit from June 2007 through August 2008 in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated the organizational structures and effectiveness of the Managers’ Internal
Control (MIC) Program established at OASD(PA) and AFIS. To understand the
organizational structure and the mission and functions of the OASD(PA) and AFIS, we
interviewed key senior managers in the OASD(PA), including the five DASDs, the
Directors for Communications Outreach, Administration and Management, and the
Advance Office, and several AFIS managers. We reviewed OASD(PA) operations in the
Pentagon; Alexandria, Virginia; Washington D.C.; and Fort Meade, Maryland. We also
reviewed governing DoD guidance for each organization and pertinent organizational
design and personnel information, such as organizational charts, Authorized Manpower
Requirements and Alignment Documents, and position descriptions of key managers.
We compared the OASD(PA) organizational design to the authorized staff levels and
identified discrepancies. We also interviewed the Director or Chief of Public Affairs for
each Military Service concerning the implementation of the FY 2005 Defense Base
Realignment and Closure recommendations. In addition, we reviewed the planning
documents for establishing DMA.

We also evaluated the effectiveness of the OASD(PA) and AFIS MIC Programs. We
interviewed the MIC Program Coordinator for OASD(PA) and AFIS to determine how he
implemented the MIC Program. We obtained MIC Program documentation and reviewed
the processes for developing risk analysis, testing internal controls, and preparing annual
statements of assurance to evaluate compliance with DoD Instruction 5010.40 in
FYs 2006 and 2007. Based on our analysis of high-risk areas, we chose to review
selected controls over contracting, budget formulation, Government purchase cards, and
personal property. We compared the FY 2006 and FY 2007 OASD(PA) and AFIS
budget amounts to the budget formulation and execution documentation we obtained
from WHS and AFIS. We interviewed the AFIS Chief of Contracting and budget
personnel in AFIS and OSD to understand the processes, procedures, and controls in their
areas. We evaluated controls over Government purchase cards by analyzing the
hierarchies listing approving officials and program coordinators used by AFIS personnel.

The Data Mining Directorate, Office of the Deputy Inspector General for Policy and
Oversight used Audit Command Language software to perform a limited review of the
3,793 Government purchase card transactions that occurred from October 1, 2006,
through December 28, 2007. Specifically, the Data Mining Directorate analyzed the
universe of AFIS Government purchase card transactions to find questionable vendors,
cardholders not assigned to AFIS, cardholders with multiple cards, duplicate or split


                                            61
transactions, and unusual transactions. We obtained explanations for these anomalies
from the purchase cardholders and the approving officials. We performed a more
extensive review over personal property.

We tested controls over AFIS personal property at AFIS Headquarters and DINFOS. We
interviewed property accountability personnel to determine how they maintained control
over accountable property from initial acquisition through authorized disposal. We
obtained a listing of all AFIS personal property in DPAS as of February 27, 2008, to test
the completeness and accuracy of AFIS personal property records. Using Microsoft
Access, we analyzed 37,311 AFIS property records for duplicate property records,
outdated inventories, incomplete data elements, and potential excess items. With the
exception of property hand-receipted to AFRTS (including the Pentagon Channel and the
News Center), we conducted a 100-percent inventory of personal property at AFIS
Headquarters in December 2007. For AFRTS, we performed a more limited inventory of
personal property. AFRTS had contracted for the purchase of a Radio Frequency
Identification system for personal property. The contract required the contractor to
perform a 100-percent physical inventory. We used the list developed by the contractor
because it included assessments as to the existence and completeness of AFRTS personal
property. We verified the list was accurate based on our review of 25 randomly selected
personal property items from the list. Using Microsoft Access, we developed a database
that compared the contractor’s list with the DPAS data to test for anomalies in the
AFRTS inventory. At DINFOS, we interviewed property accountability personnel and
conducted a walkthrough of the property accountability process. Based on our
assessment of the controls in place, we randomly selected 90 personal property items
from a November 29, 2007, DPAS list to test for the physical existence of the items. At
both AFIS Headquarters and DINFOS, we randomly selected five personal property
items to test for the availability of adequate supporting documentation.

Review of Internal Controls
We identified material internal control weaknesses for OASD(PA) and AFIS as defined
by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. OASD(PA) and AFIS did not have the necessary internal controls for
organization management to ensure proper separation of duties. OASD(PA) and AFIS
also had not established an effective MIC Program, and AFIS did not have adequate
internal controls over its procurement, contract administration, and property management
operations. Specifically, AFIS controls did not ensure that procurements met necessary
expense rules, proper contract support, and personal property accountability records were
accurate and complete. Implementing Recommendations A.1., B.2., C.2., C.3., C.4., and
D.3. will improve OASD(PA) and AFIS internal controls. We will provide a copy of this
report to the senior OSD official responsible for internal controls.

Use of Computer-Processed Data
The Data Mining Directorate, Office of the Deputy Inspector General for Policy and
Oversight conducted limited tests of the AFIS Government purchase card transactions
obtained from the Defense Manpower Data Center. We relied on additional evidence to
validate data reliability. We compared the Government purchase card transactions to


                                           62
documentation and interviewed purchase cardholders to explain anomalies identified in
the data. We also compared DPAS data for personal property with physical
documentation used to establish records, and we conducted physical inventories of
property at AFIS Headquarters and DINFOS. Although we did not perform a formal
reliability assessment of the computer-processed data, we determined that the data were
sufficiently reliable to use in conjunction with physical documentation to test controls
over AFIS personal property.

Use of Technical Assistance
Two directorates of the Office of the Deputy Inspector General for Policy and Oversight
assisted on this audit. Senior auditors of the Data Mining Directorate imported data from
the DoD Office of Inspector General copy of purchase card transactional data into ACL
software and pulled data based on purchase card hierarchies for AFIS. An operations
research analyst from the Quantitative Methods Directorate, Office of the Deputy
Inspector General for Policy and Oversight assisted in developing the personal property
test by determining the selection size necessary to review existence at DINFOS.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued two reports related to the OASD(PA) and AFIS. Unrestricted DoD IG reports can
be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2006-117, “American Forces Network Radio Programming
Decisions,” September 27, 2006

DoD IG Report No. D-2005-050, “American Forces Information Service’s Data Call
Submissions and Internal Control Processes for Base Realignment and Closure 2005,”
April 13, 2005




                                           63
64
Appendix B. Major Responsibilities and
Functions
DoD Directive 5122.5
DoD Directive 5122.5 is the OASD(PA) organization charter and assigns the following
responsibilities and functions to the ASD(PA):

       •   Develop policies, plans, and programs supporting DoD public affairs
           objectives and operations, the National Media Pool, public relations, and
           international public information programs.
       •   Promote coordination and cooperation and develop a mutual understanding
           among the DoD Components, other Federal, State, and local agencies, and the
           public.
       •   Serve on boards, committees, and other groups as the public and media
           representative of the Secretary of Defense and as the spokesperson and release
           authority for DoD information and audiovisual materials.
       •   Ensure the free flow of information to DoD personnel, the general public, and
           the news media, including the preparation of materials for public release (such
           as speeches, public statements, congressional testimony, and articles for
           publication) and respond to inquiries from the media and the general public.
       •   Provide liaison for requests to provide DoD speakers and support
           entertainment-oriented motion picture, television, and video productions.
       •   Perform such other functions as the Deputy Secretary of Defense may
           prescribe.

The ASD(PA) appointed DASDs and Directors to help perform some of these functions.
The position descriptions outlined the major responsibilities for the DASDs for Internal
Communications and Joint Communication.

DASD for Internal Communications
The DASD for Internal Communications contributes to the operational readiness and
combat effectiveness of the DoD through development of policies, guidelines, standards,
and centralized management of DoD internal information programs. The position
description of the DASD for Internal Communications listed the following major duties.

       •   Establish and provide DoD policy and guidance concerning the conduct and
           support of internal information programs.
       •   Develop and issue operational and procedural policy and guidance for the
           operation and support of AFRTS outlets, including the acquisition,
           duplication, distribution, and transmission of radio and television program
           materials.
       •   Provide overall policy and guidance to establish DoD visual information and
           audiovisual activities standards.


                                           65
       •   Provide policy, guidance, and direction for managing DoD public affairs
           programs, internal information programs, radio and television programs,
           combat camera operations, print and visual information media products that
           support DoD public affairs internal information and other programs, and DoD
           audiovisual and visual information activities.
       •   Provide policy, guidance, and direction for the provision of broadcast and
           visual information equipment system design, engineering, and procurement
           services through the Television-Audio Support Activity.
       •   Oversee and provide policy guidance for the business operations and financial
           management of the Stars and Stripes Newspaper.
       •   Approve and submit an annual budget for internal communications programs.
       •   Provide policy, guidance, and direction to senior DoD officials for resolving
           complex, joint-Service, and DoD Component issues involving state-of-the art
           audiovisual and visual information.

DASD for Joint Communication
On January 6, 2005, the ASD(PA) created the position of the DASD for Joint
Communication to shape DoD-wide processes, policy, doctrine, organization, and
training for DoD communications. The ASD(PA) created this position to maximize its
capability to communicate in an aggressive and synchronized manner. The
communication capabilities included public affairs, Defense Support for Public
Diplomacy, visual information, and information and psychological operations. The
DASD for Joint Communication also manages the OASD(PA) transformation program.
The position description of the DASD for Joint Communication listed the following
major duties:

       •   Lead the Quadrennial Defense Review Strategic Communication Working
           Group ongoing efforts focusing on improving and integrating primary
           communication capabilities supporting policy and operational planning.
       •   Coordinate DoD communication efforts that ensure the communication
           environment is included in future plans, policies, programs, and operations.
       •   Represent the ASD(PA) to the Strategic Communication Integration Group
           (SCIG).
       •   Coordinate and synchronize interagency communication efforts by
           maintaining liaison with the National Security Council, State Department,
           Central Intelligence Agency, and the White House.
       •   Oversee joint proponency for primary communication capabilities supporting
           Combatant and Joint Task Force Commanders to ensure DoD is structured to
           best organize, train, and equip communicators for the joint warfighter.
       •   Supervise the establishment and implementation of communication education
           and training programs, including DINFOS.
       •   Maximize and enhance Combatant Command and Service public
           communication collaboration and DoD’s public communication capability.
       •   Oversee visual information policy, funding, operating, training, and
           maintenance of DoD-wide visual information systems.



                                          66
DoD Directive 5122.10
DoD Directive 5122.10, “American Forces Information Service (AFIS),” November 21,
2000, is the organization charter for AFIS. DoD Directive 5122.10 listed the following
major functions for AFIS:

       •   Train DoD public affairs, broadcast, and visual information professionals.
       •   Provide communication services to support the requirements of Combatant
           Commanders.
       •   Develop policies, guidelines, and standards for its program management
       •   Provide broadcasting, visual information, and audiovisual equipment and
           systems life-cycle logistics management.
       •   Sustain information technology systems.
       •   Operate and maintain the DefenseLINK Website.
       •   Provide, in coordination with the Assistant Secretary of Defense for
           Command, Control, Communications, and Intelligence, policy oversight and
           guidance to ensure effective dissemination of DoD information to the public
           on the Internet.
       •   Maintain a central DoD World Wide Web site registration system.
       •   Consolidate OSD public Web site operations.
       •   Exercise policy and program oversight for DoD internal information
           programs.

DoD Directive 5105.74
DoD Directive 5105.74, “Defense Media Activity,” December 18, 2007, is the
organization charter for the DMA. DoD Directive 5105.74 listed the following major
responsibilities for the DMA Director:

       •   Organize, direct, and manage DMA and all assigned resources.
       •   Develop, acquire, produce, manage, distribute, and archive media products.
       •   Convey DoD-wide and Military Service unique messages consistent with the
           strategic communications objectives.
       •   Coordinate and integrate the utilization of media product in a manner that
           most effectively relates and distributes DoD and Military Service themes and
           messages to their target audiences.
       •   Provide public affairs, broadcast, print, journalism, and visual information
           common core training through DINFOS.
       •   Administer Stars and Stripes Newspaper, respecting editorial independence
           consistent with the First Amendment.
       •   Administer the AFRTS.
       •   Develop and oversee the implementation of DoD wide policies and
           procedures for DoD Internal Information Program, Hometown News Program,
           DoD Visual Information, publication of DoD newspapers and magazines, and
           related training.




                                          67
•   Provide central DoD receipt, access, distribution, asset and life-cycle
    management, storage and preservation of DoD still and motion imagery.
•   Manage and operate the consolidated DoD Public Web Program.
•   Support the command information requirements of the Secretaries of the
    Military Departments, the Combatant Commanders, and combat forces.
•   Provide life-cycle logistics and commodity management support
    for broadcasting, visual information, audiovisual, and related Web systems
    and equipment for DoD Components.




                                    68
Appendix C. DMA Management Positions
The DMA will provide a streamlined organizational structure and opportunities for
additional economies of scale in the execution of DoD media functions. The DMA
organizational structure should create opportunities for cost savings through
consolidation of common business enterprise services and cooperation among the various
DoD media functions. The DMA Director, in coordination with the DMA Transition
Team, will develop the DMA organizational structure and consider recommendations
from the ongoing organizational analysis. Based on discussions with OASD(PA) DASDs
and Directors and Military Service Public Affairs Chiefs, we identified key management
positions helpful in the development of the DMA. In developing the DMA
organizational design, DMA leadership should all consider the following key
management positions and advisors as the direct reporting staff to the DMA Director.

Chief of Staff and Chief Enlisted Advisor
The DMA will incorporate the Military Service internal communication programs and
must be equipped to meet the needs of the 1,038 Service members assigned to DMA as of
FY 2008. A Chief of Staff provides the Military command and control and assists in the
day-to-day management of business matters on behalf of the Director. A Chief Enlisted
Advisor advises the Director on issues pertaining to the integration, utilization, and
development of Military Service members. Both positions are necessary to ensure that
DMA meets the needs of the Military Commanders and effectively communicate
messages and themes from the Secretary of Defense, Service Secretaries, Joint Chiefs of
Staff, and other military leaders.

Director of Operations and Director of Training
The DMA missions defined in DoD Directive 5105.74 fall into two distinct business
areas. The first business area is operations: operations includes providing information
products to the DoD family; communicating messages and themes from DoD leaders;
providing U.S. radio and television programs, news, and information to the DoD family;
and providing visual information products. The programs that support these missions
include such current AFIS entities as Stars and Stripes, AFRTS, Defense Visual
Information Center, DMC, Joint Visual Information Service Distribution Agency, and the
internal communication function assigned to Military Departments. These programs
provide a wide variety of information products to the entire DoD family and external
audiences. The second business area is training: the DMA will provide joint education
and training to DoD military and civilian personnel in public affairs, broadcasting, and
the visual information career fields. Both business areas require strong management to
communicate their needs to the DMA Director. Because of the complexity of DMA and
its distinct business areas, the DoD should consider creating a DMA Director of
Operations to administer broadcast, Web-based, visual, and print media activities and a
DMA Director of Training to administer DINFOS and any other related training.




                                          69
The incumbents of these positions should report directly to the DMA Director and have
equal weight in making management decisions to alleviate some of the concerns of
whether both business areas will have appropriate representation within the new
structure.

Business Enterprise Services
An effectively managed organization centralizes its common business enterprise services
in order to streamline its business processes, reduce redundancy, and gain greater
economies of scale. To implement the new DMA successfully, it is imperative that the
DMA Director have a support staff to manage common business enterprise services. This
would ensure that all components implement common business practices and enable
DMA managers to have a complete overview of resource allocation. A key position in
this effort would be a DMA Director of Business Enterprise Services. The Business
Enterprise Services office would provide administrative services such as human resources
office, supplies and services, printing, mail services, records management, forms
management, conference room management, regulation management, and travel and
transportation. The Business Enterprise Services should also provide uniform oversight
and management over support functions whose personnel are located within the DMA
components. Functions that require centralized oversight at the Business Enterprise
Service level include acquisition management, personnel management, and property
management.

Acquisition Management
Centralized acquisition management helps to ensure that purchases of goods and services
fulfill the requirements of the organization. The acquisition management office should
develop and control entity-wide contract management practices, manage the DMA
Government purchase card program, and oversee the DMA purchasing requirements.
Through centralized acquisition management, the DMA can realize greater efficiencies
through combined purchases and ensure compliance with Federal and DoD acquisition
regulations.

Personnel Management
Another important function to the success of the new DMA is the need for a consolidated
personnel management function. The personnel management office should be
responsible for all aspects of military and civilian personnel management and work
closely with the Chief Financial Officer, DoD Civilian Personnel Management Service,
the Military Departments, and the DMA Senior Enlisted Advisor. The need to centralize
personnel functions will increase as Military Departments’ resources transfer in.

Property Management
The DMA will need a centralized property management function to provide construction
and space utilization planning and execution. Because the DMA will assume control
over extensive resources at Ft. Meade and other locations throughout the world, it will
need this function to administer control over all DMA property. The property
management function would develop the systems and processes for acquiring,
maintaining, and disposing resources at DMA facilities.


                                          70
Key Area Advisors
An effectively managed organization benefits from having an individual in control of
such areas as financial management, information resource management, and internal
review. Because of the complex requirements, one individual should oversee each of
these functions and provide information directly to the DMA Director.

Chief Financial Officer
The Chief Financial Officer is an important position to ensure the proper allocation,
accountability, and execution of financial resources. This individual would be
responsible for oversight of all financial management activities; developing and
maintaining accounting and budget systems; providing financial and budget reports; and
directing, managing, and providing policy and oversight of financial management
personnel, activities, and operations. A Chief Financial Officer is necessary to ensure
that DMA properly accounts and safeguards financial resources.

Chief Technology Officer
A Chief Technology Officer would provide overall management of DMA information
technology resources. DMA provides a variety of information products using emerging
technologies. A Chief Technology Officer would formulate technical visions and
strategies and have visibility of all information technology resources. This position is
necessary to ensure that the DMA maintains and effective life cycle management
program and provides accountability and safeguarding of information technology
resources.

Inspector General
An Inspector General would provide an independent and objective advice to the DMA
Director through audits and investigations relating to DMA programs and operations.
The DMA Inspector General would report on the status of DMA; perform investigative,
inspection, and evaluation functions as instructed by the Director; and maintain liaison
functions with the Government Accountability Office and the DoD OIG. In addition, the
Inspector General office could also oversee the DMA Managers’ Internal Control
Program and prepare the DMA Annual Statement of Assurance for the Director. This
position is important to ensure effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations.

Legal Counsel
A key advisor to the Director should be the legal counsel who advises the organization on
legal requirements. The legal counsel should provide support for all DMA areas and be
involved in the implementation of program and activities. The legal counsel would
ensure that DMA policies, programs, and transactions comply with public law.




                                           71
72
Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments




                   Click to add JPEG file




                                  73
                           Final Report
                            Reference




Click to add JPEG file

                         Redirected
                         Recommendation




                         Revised
                         Recommendation




               74
                           Final Report
                            Reference




Click to add JPEG file   Revised
                         Recommendation




               75
Assistant Secretary of Defense (Public Affairs) Comments




                   Click to add JPEG file




                                  76
Click to add JPEG file




               77
                         Correct date is
                         March 31, 2009 per
                         ASD(PA)




Click to add JPEG file




               78
Click to add JPEG file




               79
Click to add JPEG file




               80
Click to add JPEG file




               81
Click to add JPEG file




               82
Click to add JPEG file




               83
Click to add JPEG file




               84
Click to add JPEG file




               85
DoD Director of Administration and Management
Comments




                   Click to add JPEG file




                                  86
Click to add JPEG file




               87
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 88
Click to add JPEG file




               89
90
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Carmelo G. Ventimiglia
George C. DeBlois
Bradley D. Grubb
Barbara A. Purvis
Lisa L. Brown
Jerrod F. McFarland
Erin S.-E. Hart
